<html>
<title> - DOMESTIC PREPAREDNESS IN THE NEXT MILLENNIUM</title>
<body><pre>[Senate Hearing 106-]
[From the U.S. Government Printing Office]


[GRAPHIC] [TIFF OMITTED] T3249.001

[GRAPHIC] [TIFF OMITTED] T3249.002

[GRAPHIC] [TIFF OMITTED] T3249.003


 
              DOMESTIC PREPAREDNESS IN THE NEXT MILLENNIUM

                              ----------                              


                        TUESDAY, APRIL 20, 1999

        U.S. Senate, Subcommittee on Youth Violence, and 
            Subcommittee on Technology, Terrorism, and 
            Government Information, Committee on the 
            Judiciary,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:09 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jeff Sessions 
(chairman of the Subcommittee on Youth Violence) presiding.
    Also present: Senators Kyl, and Feinstein.

 OPENING STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM 
                      THE STATE OF ALABAMA

    Senator Sessions. I will ask that this joint subcommittee 
hearing come to order, and I would apologize for not being here 
on time myself and for the others who are not here. We are in, 
as you know, a serious crisis concerning the events in Kosovo, 
and I know the conferences are discussing that today, and still 
ongoing, with some important matters. So I know that is where a 
number of the people are at this point. And I wish that were 
not so, but that is what the situation is and, in fact, 
heightens in some degree the interest in this hearing, since 
there have been a number of predictions that weapons of mass 
destruction or terrorist acts could spring out of this military 
action in Kosovo.
    Four years ago yesterday, America experienced the worst 
incident of domestic terrorism in its history. The bomb that 
exploded outside the Murrah Building in Oklahoma City took the 
lives of 168 Americans. I am sure we all remember the images of 
panic, shock and grief that we associate with that incident. We 
can all recall the pictures of emergency rescue workers as they 
struggled diligently to save lives.
    Although the attack in Oklahoma City caused massive damage 
and loss of life, a weapons of mass destruction attack would 
have been perhaps even worse. Chemical, biological, or even 
nuclear weapons are not beyond the capability of some of the 
world's terrorists. As many have said, the question is not 
whether we will have such an attack, but when.
    It is clear America must be prepared to defend itself 
against such a threat to our homeland. A significant portion of 
the funding for domestic preparedness will come through the 
Department of Justice's Office of Justice Programs. This year, 
the Youth Violence Subcommittee's jurisdiction was expanded to 
include oversight over the Office of Justice Programs. 
Considering the importance of domestic preparedness, I expect 
that this subcommittee will spend a significant amount of time 
exercising its oversight responsibilities in this area.
    I would like to thank also Senator Jon Kyl, of Arizona, for 
agreeing to this joint hearing. I admire and respect the work 
that Senator Kyl's Subcommittee on Terrorism performs as it 
works to strengthen our capacity to deal with the threat of 
terrorism. They are doing critical work in this area and I look 
forward to working with Senator Kyl, his subcommittee, and with 
the administration to establish clear policies on domestic 
preparedness and providing the appropriate training and funding 
to adequately prepare our first responders in case a weapons of 
mass destruction attack occurs.
    All agree a heavy emphasis must be placed on first 
responders. First responders are those State and local fire, 
law enforcement and medical workers that will be the first to 
respond to a domestic terrorism incident. It is the job of 
these people to assess the damage, treat the wounded, and keep 
the casualties to a minimum.
    Although the FBI, FEMA and other Federal agencies will 
assume many duties in the event of such a terrorist incident, 
State and local officials will clearly have the initial 
responsibility to respond to the crisis. Accordingly, any 
effective national domestic preparedness policy must contain a 
plan for adequately training and adequately equipping first 
responders to provide the services they need in the event of an 
attack.
    State and local officials must be provided with enough 
training and the best available information so that if a crisis 
occurs, front-line responders can assess the immediate needs 
and take actions to protect themselves and the public from 
further harm. In the words of Attorney General Reno, it is 
these personnel which must restore order out of chaos.
    Mr. Cragin, who is here today, stated the situation clearly 
over a year ago before the House Committee on National 
Security.

    Should a weapon of mass destruction actually be used, 
responders, be they local, State, Federal, civilian or 
military, will confront unique and daunting challenges. These 
rescue and medical personnel will need to perform their mission 
without themselves becoming casualties.

    Some of the challenges, including providing medical 
assistance, investigating the nature of the attack, and 
containment, are important. This is a challenge which faces us 
today. Because many Federal agencies perform various functions 
in this endeavor, successful coordination and management among 
them is crucial.
    In response to the needs of State and local government, the 
President has stated that over $10 billion will be dedicated to 
this effort. However, before we follow through on this request, 
Congress has an obligation to examine the plan and strategy 
behind the funding to ensure that our Government is not just 
throwing money at the problem, hoping that it will solve 
itself. Domestic preparedness, only if conducted properly and 
efficiently, will save lives in the event of a terrorist 
attack.
    And I will just say I was in the Department of Justice when 
we began under President Reagan a war on drugs. And any of you 
that have been in the Government know when you have a 
multiplicity of agencies getting involved and there is money on 
the table, a lot of conflicts, disorganization, competition 
that can be really destructive to the overall goal begins to 
take place. So I am somewhat troubled about the lack of clarity 
in leadership in this effort.
    So I look forward to hearing from our witnesses today, how 
they would explain the administration's plan to train and equip 
first responders to the highest possible standards, so that in 
a crisis we do not have a situation where casualties that could 
have been prevented through preparedness are lost. I also 
encourage the witnesses to describe how we in Congress can 
assist with this effort.
    I am excited about this hearing. I think we have an 
outstanding panel. We have an oversight responsibility, but we 
also have a responsibility to assist and to make this program 
as effective as it possibly can be, and I would pledge to do 
that.
    Senator Feinstein, we are delighted to have you with us. I 
have just concluded my remarks and if you would like to make 
some at this time, I am pleased to recognize you.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
would ask unanimous consent that my statement go in the record, 
if I may.
    Senator Sessions. Without objection.
    Senator Feinstein. Let me just say a couple of things. The 
first is I think that this hearing is very important. I think 
one of the things I am most concerned about is the threat of 
biological terrorism, which really, I think, was highlighted 
and began some of this subcommittee, the Technology and 
Terrorism Subcommittee--some of our concern back in 1995, when 
a man by the name of Larry Wayne Harris, who was an Ohio white 
supremacist, managed to order and receive samples of bubonic 
plague through the mail.
    Then I cosponsored with Senator Hatch some biological 
agents enhanced penalties which ultimately passed as part of 
the 1996 terrorism bill. And I think one of the things that we 
are seeing is that whereas, to date, the United States hasn't 
experienced a biological or chemical weapons attack of any 
significance, we have suffered literally hundreds of deaths 
around the world due to terrorist attacks using conventional 
explosives, and certainly in this country as well.
    So I think it is important to give the Treasury Department 
increased authority. We had some taggants legislation earlier 
on to be able to better trace the purchaser of certain 
explosive materials. That passed also as part of the 1996 bill.
    So to sum it all up, I think it is very important that we 
look ahead and try to see that we have the infrastructure in 
place in terms of counterterrorism, and the bills that really 
deal with the proliferation and sale of some of the commodities 
that are utilized. And I just very much look forward to the 
testimony today, and hopefully we will learn something new.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Feinstein follows:]

             Prepared Statement of Senator Dianne Feinstein

    It goes without saying that we need to be prepared for the threat 
of terrorist attacks on U.S. soil. The United States now faces the 
threat of attack from a variety of terrorist incidents. These 
terrorists can arise domestically, as we saw with the Oklahoma City 
bombing, or from abroad, as with the World Trade Center bombing. 
Disgruntled individuals also pose similar threats, as we have seen with 
the Unabomber.
    I have undertaken a number of efforts to help prevent, investigate, 
and prosecute such attacks.
    The threat of biological terrorism was highlighted in 1995, when 
Larry Wayne Harris, an Ohio white supremacist, managed to order and 
receive samples of the bubonic plague through the mail. To prevent this 
from happening again in the future, I was an original co-sponsor of the 
Hatch-Feinstein Biological Agents Enhanced Penalties and Control Act, 
which ultimately passed as part of the 1996 terrorism bill.
    This bill: Added the attempt or threat to acquire dangerous 
biological agents for use as a weapon as crimes punishable by fines or 
imprisonment up to life imprisonment; Directed the Secretary of Health 
and Human Services to rapidly establish and maintain a list of 
biological agents which pose a severe threat to public health and 
safety; and Directed the Secretary of Health and Human Services to 
rapidly establish and enforce safety procedures for transfers of human 
pathogens, to ensure proper training and procedures for handling such 
agents, and to prevent unauthorized persons from obtaining the 
dangerous biologicals, while maintaining appropriate availability of 
these agents for research, education and other legitimate purposes.
    Later that year, HHS, through the Centers for Disease Control, 
published regulations implementing this Act. I look forward to 
discussing implementation of this law and these regulations with the 
witnesses today.
    To date, the United States has not experienced a biological or 
chemical weapons attack of significance by terrorists. In contrast, we 
have suffered hundreds of deaths due to terrorist attacks using 
conventional explosives. To help investigate, prosecute, and punish 
these despicable, evil and cowardly acts, I led the fight to give the 
Treasury Department the authority to require the use of taggants in 
explosive materials, which also passed as part of the 1996 terrorism 
law.The Treasury Department is now conducting the studies necessary to 
implement this law in appropriate circumstances.
    I also have been fighting to prohibit the distribution of bomb-
making manuals for a criminal purpose. A report published by RAND in 
just the last-month, ``Countering the New Terrorism,'' found that, ``An 
amateur terrorist--anyone with a grievance and a bomb-making manual--
can be just as deadly and more difficult to anticipate than his 
professional counterpart.''
    My proposal to punish those who knowingly distribute these manuals 
to terrorists and other criminals has the support of the United States 
Department of Justice, who has helped me to draft the specific 
language. The Senate has passed this prohibition on three separate 
occasions, without a single vote in opposition. Unfortunately, the 
House has eliminated it in conference each time. However, the 
objectives of one of the chief opponents have now been resolved, and I 
am optimistic that we will finally pass this common-sense law this 
Congress.
    Swift, certain apprehension, prosecution and punishment of 
terrorists can do much to reduce the need for emergency response 
measures in the first place.
    But, of course, we need to be prepared for such attacks. Our 
preparation should at least track the expected threat, taking into 
account, for instance, the relative likelihood of use of chemical vs. 
biological weapons. Similarly, terrorism experts note that major 
population centers--principally New York, Los Angeles, and Washington, 
DC--are at the greatest risk of terrorist attack, and that the chances 
of a terrorist attack in a rural, sparsely-populated area are slight. 
We must bear in mind that, when it comes to preparedness, one size does 
not fit all.
    So I look forward to exploring these issues with the witnesses 
today, as well as other experts who are not before us.

    Senator Sessions. Senator Feinstein. I appreciate your 
leadership on these and other law enforcement-type issues.
    Let me call the first panel up, if you would, if you will 
step forward. I will introduce Barbara Martinez. She is the 
Deputy Director of the National Domestic Preparedness Office, 
NDPO. It is a newly established office for the Department of 
Justice that will attempt to coordinate the domestic 
preparedness programs between the various Federal agencies 
involved. Thank you very much for joining us today.
    Ms. Martinez. Thank you, Mr. Chairman.
    Senator Sessions. Dr. James Hughes is a Fellow of the 
American College of Physicians and the Infectious Diseases 
Society of America, and Assistant Surgeon General in the U.S. 
Public Health Service. Dr. Hughes has been Director of the 
National Center for Infectious Diseases, Centers for Disease 
Control and Prevention, since 1992. The National Center for 
Infectious Diseases is currently working to address domestic 
and global challenges posed by emerging infectious diseases and 
the threat of bioterrorism.
    Charles Cragin currently serves as Acting Assistant 
Secretary of Defense for Reserve Affairs. Mr. Cragin has broad 
responsibilities for coordinating the Department of Defense's 
weapons of mass destruction preparedness efforts. Prior to his 
current duties, he served as Chairman of the Board of Veterans 
Appeals of the Department of Veterans Affairs. During his 36 
years of military service, Mr. Cragin received several 
commendations, including the Legion of Merit and the Defense 
Meritorious Service Medal.
    Andy Mitchell has over 25 years of experience in public 
safety and criminal justice program development and planning, 
and is currently Deputy Director of the Office for State and 
Local Domestic Preparedness within the Office of Justice 
Programs. The Office is responsible for the development of 
training programs for State and local responders, including 
administering a grant program to provide specialized equipment 
that will assist State and local agencies to respond to 
terrorist incidents. Before his current position, he was 
responsible for management of the Bureau of Justice Assistance 
First Responder to Terrorist Incident's National Training 
Program for fire and emergency medical personnel.
    I think we have an excellent panel here. I would ask that 
you would please contain your remarks to 5 minutes, because we 
do have more people that will be talking.
    Ms. Martinez.

   PANEL CONSISTING OF BARBARA Y. MARTINEZ, DEPUTY DIRECTOR, 
   NATIONAL DOMESTIC PREPAREDNESS OFFICE, U.S. DEPARTMENT OF 
    JUSTICE; JAMES M. HUGHES, DIRECTOR, NATIONAL CENTER FOR 
     INFECTIOUS DISEASES, CENTERS FOR DISEASE CONTROL AND 
PREVENTION, DEPARTMENT OF HEALTH AND HUMAN SERVICES; CHARLES L. 
   CRAGIN, ACTING ASSISTANT SECRETARY OF DEFENSE FOR RESERVE 
   AFFAIRS, DEPARTMENT OF DEFENSE; AND ANDY MITCHELL, DEPUTY 
  DIRECTOR, OFFICE FOR STATE AND LOCAL DOMESTIC PREPAREDNESS 
SUPPORT, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE

                STATEMENT OF BARBARA Y. MARTINEZ

    Ms. Martinez. Good afternoon, Mr. Chairman, Senator 
Feinstein. Thank you for this opportunity to speak before 
distinguished Members of Congress and my colleagues regarding 
the role of the National Domestic Preparedness Office in 
combatting terrorism within the United States. I have submitted 
a written statement for the record that further details my 
testimony here today.
    Senator Sessions. We will make that a part of the record. 
Thank you.
    Ms. Martinez. Thank you, sir.
    My intent is to highlight the importance of providing 
coordination for all of the Federal Government's efforts that 
provide valuable assistance to prepare States and local 
communities to face the challenge that terrorism presents.
    While over 40 Federal agencies have a role in response to a 
true terrorist attack involving weapons of mass destruction, so 
too are many of them in a logical position to provide various 
forms of expert assistance to their State and local 
counterparts, the men and women of this country on the front 
line, whose job it is to save lives and protect the security of 
our communities if such an event ever occurs.
    Federal assistance is currently available in the form of 
training, exercising, equipping, research and technology 
development, information-sharing, planning guides, grants, and 
other support to enhance State and local capabilities. It is 
upon these very partnerships and concerns of the Federal 
Government and the emergency response community that the 
National Domestic Preparedness Office, or NDPO, was founded.
    As you know, in the past few years the President of the 
United States and Congress have taken significant steps to 
increase our national security and to promote interagency 
cooperation. Most recently, the cooperative efforts against 
terrorism have been extended to include State and local 
agencies, as well as professional and private sector 
associations.
    For example, in preparation of the 5-year Counterterrorism 
and Technology Crime Plan for the administration, the Attorney 
General of the United States directed the Department of 
Justice, Office of Justice Programs, to host a meeting of 
individuals who represent the various emergency response 
disciplines that would most likely be involved in the response 
to a terrorist event. More than 200 stakeholders, representing 
each of the response disciplines, including fire services and 
HAZMAT personnel, law enforcement and public safety personnel, 
emergency medical and public health professionals, emergency 
management and State government officials, as well as various 
professional associations and organizations, all attended the 
two-day session.
    Collectively, they made recommendations to the Attorney 
General, as well as James Lee Witt, Director of FEMA, Dr. 
Hamre, the Deputy Secretary of Defense, and other Federal 
officials, on ways to improve assistance for State and local 
communities. These recommendations have been incorporated into 
the Attorney General's 5-year plan.
    The most critical issue identified by stakeholders was the 
need for a central Federal point of coordination. Due to the 
size and complexity of both the problem of terrorism and the 
Federal Government itself, it was no surprise that many 
different avenues through which aid may be acquired by State 
and local officials and the resulting inconsistency of those 
programs was deemed to be simply overwhelming. In essence, the 
Federal Government, though well-intentioned, was not operating 
in an optimal manner, nor was it effectively serving its 
constituents with regard to domestic preparedness programs and 
issues.
    So with careful consideration of the stakeholders' 
recommendations, the Attorney General consulted the National 
Security Council, the Federal Emergency Management Agency, the 
Department of Health and Human Services and other relevant 
agencies regarding the creation of a single coordination point 
within the Federal Government to better meet the needs of the 
Nation.
    It was agreed that the FBI, in conjunction with its 
existing responsibilities for coordinating Federal assets 
during an actual terrorist event, would lead the interagency 
coordination initiative, now known as the National Domestic 
Preparedness Office. It is intended that the NDPO will serve as 
a much-needed clearinghouse to provide information to local and 
State officials who must determine the preparedness strategy 
for their own community.
    In keeping with the stakeholders' requests, the NDPO will 
also provide a forum for the establishment of agreed-upon 
recommended minimum standards upon which Federal programs 
should be built. Federal participants in the NDPO currently 
include the Department of Defense, the Department of Energy, 
the Department of Health and Human Services, the Environmental 
Protection Agency, the Office of Justice Programs, the Federal 
Bureau of Investigation, the Federal Emergency Management 
Agency, the National Guard Bureau, and in the near future the 
U.S. Coast Guard, the Nuclear Regulatory Agency, and the Office 
of Victims of Crime.
    Stakeholders cited the need for formal representation of 
State and local officials with the Federal agencies in the form 
of an advisory board to guide the development and delivery of 
more effective Federal programs. Federal agencies agree that 
their participation is critical to the whole process of 
domestic preparedness.
    Therefore, in addition to the advisory board, it is 
anticipated that, when fully staffed, approximately one-third 
of the office will be comprised of State and local experts from 
various response disciplines. These positions will be filled 
through the establishment of interagency reimbursable 
agreements or contract hires and volunteer service 
arrangements.
    Stakeholders easily identified six broad issue areas in 
need of coordination and assistance--planning, training, 
exercise, equipment research and development, information-
sharing, and public health and medical services. And if I have 
time, I would like to just highlight a few of these ongoing 
efforts.
    In the area of planning, NDPO is coordinating with FEMA on 
the implementation of a WMD resource database to detail all of 
the available response assets for consequence management to an 
incident involving weapons of mass destruction. NDPO will 
facilitate the distribution of the U.S. Government Interagency 
Domestic Terrorism Concept of Operations Plan and other 
planning guidance for State and local communities through the 
WMD coordinators in the FBI field offices to ensure a unified 
response to a WMD incident. The benefit of the guide is to 
explain to State and local planners the logistics of how 
Federal assets may be included in their local emergency 
response plans.
    In the area of training, NDPO is coordinating a DOD 
initiative to maintain a compendium of existing training. In 
connection with the information-sharing program area, the NDPO 
has implemented, in association with the FBI, a mechanism to 
grant access to approved personnel outside law enforcement to 
information that could be important for preparedness 
activities.
    In the equipment/R&D area, NDPO has established a 
standardized equipment list which has been incorporated into 
the grant application kits used by the Office of Justice 
Programs.
    In the health and medical program area, NDPO, under the 
guidance of the Public Health Service and the Department of 
Health and Human Services, will coordinate efforts to support 
the Metropolitan Medical Response Systems, as well as 
pharmaceutical stockpiling, establishment of surveillance 
systems and other initiatives.
    I am going to sum up here. I see that my time is short. I 
would like to thank you for the opportunity to speak with you 
here today, and in the future, as the NDPO continues to mature 
into a one-stop shop for domestic preparedness, as the Attorney 
General of the United States has proposed. As she has recently 
said, ``the actions of the first people on the scene can really 
make the difference between life and death. The key is to work 
together in a partnership among Federal, State and local 
communities and prepare a coordinated response that saves lives 
and provides for the safety of all involved.'' She continued to 
say that none of us could do it alone.
    I stand ready to respond to your questions. Thank you, sir.
    Senator Sessions. Well, I thank you, and you certainly are 
correct that the many thousands of State and local law 
enforcement, medical, and fire departments, do need a place 
that they can call and not have to trace down the whole list of 
Federal agencies that you have just listed. So I hope that we 
can move toward that, but my experience in Government is that 
it will not be as easy as it sounds.
    [The prepared statement of Ms. Martinez follows:]

               Prepared Statement of Barbara Y. Martinez

    Good afternoon, Mr. Chairman and thank you for this opportunity to 
speak before distinguished members of Congress and my colleagues 
regarding the role of the National Domestic Preparedness Office in 
combating terrorism within the United States. I have submitted a 
written statement for the record which further details my testimony 
here today.
    My intent is to highlight the importance of providing coordination 
of all the federal government's efforts that provide valuable 
assistance to prepare states and local communities to face the 
challenge that terrorism presents. While over 40 federal agencies have 
a role in response to a true terrorist attack involving weapons of mass 
destruction, so too are many of them in a logical position to provide 
various forms of expert assistance to their state and local 
counterparts--the men and women of this country on the front line, 
whose job it is to save lives and protect the security of our 
communities if such an event occurs. Federal assistance is currently 
available in the forms of training, exercising, equipping, research and 
technology development, information sharing, planning guidance and 
grants and other support to enhance local and state capabilities. It is 
upon these very partnerships and concerns, of the federal government 
and the emergency response community, that the National Domestic 
Preparedness Office (NDPO) is founded.
    As you know, in the past few years, the President of the United 
States and Congress have taken significant steps to increase our 
national security and to promote interagency cooperation. Most 
recently, the cooperative efforts against terrorism have been extended 
to include state and local agencies as well as professional and private 
sector associations.
    For example, in the preparation of the Five-Year Counterterrorism 
and Technology Plan for the Administration, the Attorney General of the 
United States directed the Department of Justice, Office of Justice 
Programs, to host a meeting of individuals who represent the various 
emergency response disciplines that would most likely be involved in 
the response to a terrorist event. More than 200 stakeholders 
representing each of the response disciplines, including fire services 
and HAZMAT personnel; law enforcement and public safety personnel; 
emergency medical and public health professionals; emergency management 
and state government officials; and various professional associations 
and organizations all attended the two-day session. Collectively, they 
made recommendations to the Attorney General; James Lee Witt, Director 
of FEMA; Dr. Hamre, the Deputy Secretary of Defense, and other Federal 
officials on ways to improve assistance for state and local 
communities. These recommendations have been incorporated in the 
Attorney General's Five-Year Plan.
    The most critical issue identified by stakeholders was the need for 
a central federal point of coordination. Due to the size and complexity 
of both the problem of terrorism and of the federal government itself, 
it was no surprise that the many different avenues through which aid 
may be acquired, by state and local officials, and the resulting 
inconsistency of those programs was deemed to be simply overwhelming. 
In essence, the federal government, though well intentioned, was not 
operating in an optimal manner nor was it effectively serving its 
constituents with regard to Domestic Preparedness programs and issues.
    With careful consideration of the Stakeholders' recommendations, 
the Attorney General consulted the National Security Council, Federal 
Emergency Management Agency, Department of Health and Human Services, 
and other relevant agencies regarding the creation of a single 
coordination point within the federal government to better meet the 
needs of the Nation. It was agreed that the FBI, in conjunction with 
its existing responsibilities for coordinating federal assets during an 
actual terrorist event, would lead the interagency coordination 
initiative now known as the National Domestic Preparedness Office.
    It is intended that the NDPO will serve as a much needed 
clearinghouse to provide information to local and state officials who 
must determine the preparedness strategy for their community. In 
keeping with Stakeholder's requests, the NDPO will also provide a forum 
for the establishment of agreed upon recommended minimum standards upon 
which federal programs should be built.
    Federal Participants in the NDPO currently include the Department 
of Defense, Department of Energy, the Department of Health and Human 
Services, the Environmental Protection Agency, the Office of Justice 
Program, the Federal Bureau of Investigation, the Federal Emergency 
Management Agency, the National Guard Bureau, and in the near future, 
the U.S. Coast Guard, the Nuclear Regulatory Agency, and the Office for 
Victims of Crime.
    Stakeholders also cited the need for formal representation of state 
and local officials with the federal agencies in the form of an 
advisory board to guide the development and delivery of more effective 
federal programs. Federal agencies agree that their participation is 
critical to the whole process of Domestic Preparedness. Therefore, in 
addition to the Advisory Board, it is anticipated that when fully 
staffed, approximately one-third of the office will be comprised of 
State and Local experts from various response disciplines. These 
positions will be filled through the establishment of interagency 
reimbursable agreements or through contract hires and volunteer service 
arrangements.
    Stakeholders easily identified six broad issue areas in need of 
coordination and assistance. These areas are: Planning; Training; 
Exercise; Equipment Research and Development; Information Sharing; and 
Public Health and Medical Services. I would like to highlight just a 
few of the ongoing efforts of the NDPO in each of these areas.
    In the area of Planning, the NDPO is coordinating, with FEMA, the 
implementation of a WMD Resource Database to detail all of the 
available response assets for consequence management to an incident 
involving weapons of mass destruction. NDPO will facilitate the 
distribution of the United States Government Interagency Domestic 
Terrorism Concept of Operations Plan and other Planning guidance for 
State and Local communities, through the WMD Coordinators in the FBI's 
field offices to ensure a unified response to a WMD incident. The 
benefit of the guide is to explain to state and local planners the 
logistics of how federal assets may be included in their local 
emergency response plans.
    In the area of Training, the NDPO is continuing to coordinate the 
DoD initiative to maintain a compendium of existing training courses 
available to emergency responders; it is establishing a mechanism to 
ensure that federal training programs comply with national standards 
and to provide quality assurance; it is developing a national strategy 
to make sustained training opportunities and assistance available to 
all communities and states.
    In connection with the Information Sharing program area, the NDPO 
has implemented, in association with the FBI, a mechanism to grant 
access by approved personnel outside law enforcement to information 
that may be important for preparedness and consequence management. 
Internet web-sites, both public and secure have been established for 
the sharing of public safety information. Links to existing web-sites 
will also be built.
    In the Exercise program area, the NDPO has adapted a military 
software application for civilian use to track the lessons learned 
during exercises and actual events. The NDPO will provide this tool to 
the communities through the WMD Coordinators and will maintain an 
After-Action Tracking database for the repository and review of all 
lessons that might assist other communities.
    In the Equipment/Research and Development program area, the NDPO 
has established a Standardized Equipment List which has been 
incorporated into the grant application kits used by the Office of 
Justice Programs. The NDPO will again serve as a clearinghouse for 
product information provided by private vendors and testing data 
provided by the Department of Defense to promote synergy and avoid 
costly duplication in the area of federal research and development.
    In the Health and Medical program area, the NDPO, under the 
guidance of Public Health Service of the Department of Health and Human 
Services will coordinate efforts to support Metropolitan Medical 
Response Systems, pharmaceutical stockpiling, the establishment of a 
nationwide surveillance system to improve the identification of 
infectious diseases and the integration of the public and mental health 
care community into WMD response plans.
    Last week, the NDPO sponsored the first to two major conferences 
attended by representatives from Federal, State and local agencies. At 
that time, the Attorney General was presented with an overview by 
several communities of their cooperative efforts, which illustrated of 
the growing cooperation between all levels of government to address 
their preparedness needs of this Nation to deal with a major terrorist 
event, including those that involve WMD.
    I thank you for the opportunity to speak to you today, and in the 
future as the NDPO continues to mature into the ``one-stop shopping'' 
for domestic preparedness as proposed by the Attorney General of the 
United States. As she has recently said, ``the actions of the first 
people on the scene can really make the difference between life and 
death. The key is to work together in a partnership among federal, 
state and local communities to prepare a coordinated response that 
saves lives and provides for the safety for all involved''. She 
continued to say that ``none of us, federal, state or local can do it 
alone, we're all in this together''. I stand ready to respond to any 
questions you may have.

    Senator Sessions. Senator Jon Kyl is here now, and he 
chairs the Subcommittee on Terrorism and is an expert in these 
areas.
    Jon, before we continue, I would like for you to make any 
comments that you might have.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Well, thank you, Mr. Chairman, and with the 
indulgence of the panel that is already assembled, I would like 
to make some brief comments because this is a critical issue 
and I would like at least for the other people here to know 
what we have been doing as well. I appreciate very much your 
willingness to chair the hearing between our two subcommittees. 
As you know, Senator Feinstein is the ranking member on our 
other subcommittee and she has been very helpful on this as 
well.
    There have been a number of incidents--the World Trade 
Center bombing, the use of sarin in the Tokyo subway, the 
bombing of the Murrah Building--coupled with predictions of 
increased terrorist efforts to acquire weapons of mass 
destruction, that have really shocked a lot of Americans into 
beginning to think about how well prepared our communities are 
to address an incident involving weapons of mass destruction.
    In many respects, they see the task as daunting. It 
involves coordinating a response across many jurisdictions, as 
has just been pointed out, many autonomous community entities, 
including law enforcement, fire and rescue, private and public 
health officials, military, intelligence, and many Federal 
agencies. Moreover, the response needed is different in each 
case.
    For example, biological attack represents unique 
challenges, as individuals may be infected in one city or State 
and move to another before symptoms emerge. In this case, the 
first responder may be a public health official, perhaps in a 
rural part of the State. It therefore becomes essential that 
information, diagnosis and antidotes be shared with every 
corner of the country, which is an unimaginably difficult task.
    The Nunn-Lugar-Domenici legislation from 1996 wisely 
forecasted the need to coordinate these efforts to ensure an 
effective overall response. Last year, the city of Phoenix, 
where I come from, conducted one of the preparedness drills 
that resulted from the legislation. Many problems surfaced 
during the exercise. The FBI was notified too late. Hospitals 
were not updated about the mock chemical attack. Mock patients 
were overlooked or were not decontaminated before being 
transported. Communication was too slow. Despite the problems, 
the drill was declared 85-percent effective, not a spectacular 
success, but at least not a failure.
    DOD's implementation of the Domestic Preparedness Program 
has met with some criticism. For example, a November 1998 
report by GAO identified a number of challenges facing the 
successful implementation of the program, and I will be anxious 
to receive responses from DOD and DOJ to some of the GAO 
criticisms.
    So, Mr. Chairman, I look forward to hearing from our 
witnesses today. I have got some very specific questions about 
the operational aspects of the Domestic Preparedness Program, 
and if I don't get into all of them today, I will submit them 
for writing and the witnesses can respond later.
    So, again, thank you, and thank you to the panel for 
allowing me to interrupt.
    Senator Sessions. Well, thank you, and thank you for your 
consistent leadership on this issue.
    I was just given a note, a sad note, but it also perhaps 
indicates why we are here. The note is that we have a shooting 
at a high school in Denver. Eight people have been shot. A 
masked gunman with a machine gun is on the scene. So we are 
having so much of that today, and it is not much to go from a 
gun to a bomb, to a chemical weapon. So I guess that is the 
nature of the world we are going to be living in for some time.
    And I hope for the two Senators' benefit that as we go 
through this we will think about not just what we want 
accomplished, but how it is this Government is going to do it, 
because there are so many agencies involved, so many people 
that have a mission and a desire to contribute, that we have 
got to make sure that they are not duplicating one another and 
working effectively.
    Dr. Hughes, would you make your statement at this time?

                  STATEMENT OF JAMES M. HUGHES

    Dr. Hughes. Mr. Chairman, Senator Kyl, Senator Feinstein, 
thank you for the invitation to discuss the need to enhance the 
public health capacity in the United States to respond to the 
threat of bioterrorism. I will briefly describe CDC's actions 
to strengthen our Nation's public health laboratories and 
disease surveillance and control programs to ensure an 
effective response to acts of biological and chemical 
terrorism.
    In the past, an attack with a biological agent was 
considered very unlikely. However, many experts currently 
believe that it is no longer a matter of if, but when such an 
attack will occur. They point to activities by groups such as 
Aum Shinryko which, in addition to releasing nerve gas in 
Tokyo's subway, experimented with botulism and anthrax.
    The initial response to an attack on civilians by a 
bioterrorist is likely to be made by the public health 
community rather than by the military or emergency responders. 
When people are exposed to agents such as those causing anthrax 
or smallpox, they will be unaware of the exposure and will not 
feel sick for some time. This delay between exposure and onset 
of illness, known as the incubation period, is characteristic 
of infectious diseases. The incubation period may range from 
several hours to a few weeks, depending on the nature of the 
exposure and pathogen.
    Protection against terrorism requires investment in the 
public health system. This point was underscored in a recent 
report issued by Institute of Medicine, which stresses the need 
for long-term public health improvements in surveillance, 
epidemiology and laboratory capacity.
    In 1998, CDC issued ``Preventing Emerging Infectious 
Diseases: A Strategy for the 21st Century,'' our plan for 
preventing emerging diseases. It focuses on four goals, each of 
which has direct relevance to preparedness for bioterrorism--
disease surveillance and outbreak response, applied research, 
infrastructure and training, and disease prevention and 
control. This plan emphasizes the need to be prepared for the 
unexpected, whether it be the next natural-occurring influenza 
pandemic or the deliberate release of organisms causing 
smallpox or anthrax.
    CDC, working in collaboration with State and local health 
departments, many other public health partners, the HHS Office 
of Emergency Preparedness, and other Federal agencies and 
departments, has begun the effort to upgrade national public 
health capabilities to respond to biological and chemical 
terrorism.
    Because terrorists may employ a wide range of agents, this 
country's infectious disease surveillance networks must have 
enhanced capacity to detect unusual events, unidentified agents 
and unexplained illnesses. In addition, State and Federal 
epidemiologists must be trained to consider the possibility of 
unusual or rare threat agents when a suspicious outbreak occurs 
and be prepared to address questions related to transmission, 
treatment and prevention.
    This past February, CDC announced the availability of 
nearly $41 million in cooperative agreement funds for our State 
and local health department partners who will be on the front 
line in the event of a bioterrorism episode. This announcement, 
along with other extramural and intramural strategies, focuses 
on strengthening four components of the public health 
infrastructure to improve the national capacity to address 
biological and chemical terrorism.
    First, detection of unusual events will most likely occur 
at the local level initially. Therefore, it is essential to 
train physicians and other health care workers who may be the 
first to examine and treat the victims, and to upgrade the 
surveillance systems of State and local health departments 
which will be relied upon to spot unusual patterns of disease 
and to identify any additional cases as the disease spreads 
throughout the community and potentially beyond, as Senator Kyl 
noted.
    Second, investigation and containment of outbreaks will 
also take place at the local level initially. For this reason, 
it is imperative that State and local health departments have 
sufficient resources to conduct timely epidemiologic 
investigations. CDC is also working to establish a national 
pharmaceutical stockpile.
    Third, rapid laboratory diagnosis will be critical so that 
prevention and treatment measures can be implemented quickly. 
CDC is working with public health partners to plan the 
development of a multi-level network of laboratories, including 
hospital labs, commercial labs, State and local public health 
labs and highly specialized Federal facilities, which will 
provide the most timely diagnosis of a biological agent in the 
event of a suspected terrorist attack. This network will not 
only enhance public health capacity to address bioterrorism, 
but will also contribute to the overall public health capacity 
to address naturally-occurring infectious diseases.
    Fourth, strengthening coordination and communication among 
clinicians, emergency departments, infection control 
practitioners, hospitals, pharmaceutical companies, law 
enforcement and emergency response personnel and public health 
personnel is of paramount importance. We will also need to 
ensure that the public is provided with accurate and timely 
information.
    CDC is working to ensure that Federal, State and local 
public health agencies are prepared to work with the medical 
emergency response and law enforcement communities to address 
biological and chemical terrorism. CDC will assist States and 
major cities in developing local bioterrorism preparedness 
plans that are well integrated into existing emergency response 
plans at local, State and Federal levels.
    In conclusion, the tools we develop in response to 
bioterrorism threats will ensure that we are prepared for man-
made threats, and that we are also able to recognize and 
control naturally-occurring emerging infectious diseases. A 
strong and flexible public health infrastructure is the best 
defense against any disease outbreak.
    Thank you very much for your attention and I will be happy 
to answer any questions you may have.
    Senator Sessions. Thank you.
    [The prepared statement of Dr. Hughes follows:]

              Prepared Statement of James M. Hughes, M.D.

    I am Dr. James M. Hughes, Director National Center for Infectious 
Diseases, Centers for Disease Control and Prevention (CDC). Thank you 
for the invitation to discuss the need to enhance the public health 
capacity in the United States to respond to the threat of bioterrorism. 
I will provide a brief discussion of the current situation and then I 
will describe the actions that CDC is taking to strengthen and modify 
our current public health laboratories and disease surveillance and 
control to ensure an effective response to acts of biological and 
chemical terrorism.
                vulnerability of the civilian population
    In the past, an attack with a biological agent was considered very 
unlikely; however, now it seems entirely possible. Many experts believe 
that it is no longer a matter of ``if'' but ``when'' such an attack 
will occur. They point to the accessibility of information on how to 
prepare biologic weapons and to activities by groups such as Aum 
Shinrykyo, which, in addition to releasing nerve gas in Tokyo's subway, 
experimented with botulism and anthrax. In 1997, the FBI investigated a 
situation in Las Vegas in which an individual was in possession of the 
organism causing anthrax. Although he had an attenuated strain of 
anthrax used in an animal vaccine rather than a virulent strain, the 
incident provided another reminder of how easily a terrorist might 
cause serious illness and panic in a U.S. city.
    An attack with a chemical agent is also increasing likely. Such an 
attack might involve the release of noxious gas, such as nerve gas, 
phosgene, or lewisite, or airborne chemical, such as hydrogen cyanide, 
chlorine, or pesticides, that can kill many people. Early in an 
investigation, it may not be obvious whether an outbreak is caused by 
an infectious agent or a chemical toxin; however, most chemical attacks 
will be localized, and their effects will be evident within a few 
minutes. An attack using a chemical agent will demand immediate 
reaction from emergency responders--fire departments, police, EMS, and 
emergency room staff--who will need adequate training and equipment. In 
contrast, when people are exposed to a pathogen like anthrax or 
smallpox, they will not know that they have been exposed, and they may 
not feel sick for some time. This delay between exposure and onset of 
illness, or incubation period, is characteristic of infectious 
diseases. The incubation period may range from several hours to a few 
weeks, depending on the exposure and pathogen.
    The initial response to such a biological attack on civilians is 
likely to be made by the public health community rather than by the 
military or emergency responders. Thus, protection against terrorism 
requires investment in the public health system. This point is 
underscored in a report, commissioned by the Department of Health and 
Human Services Office of Emergency Preparedness and recently released 
by the Institute of Medicine and the National Research Council, 
``Chemical and Biological Terrorism: Research and Development to 
Improve Civilian Medical Response,'' which stresses the need for long-
term public health improvements in surveillance and epidemiology 
infrastructure. Copies of the report have been provided to the 
Subcommittees. The financial costs of these improvements will be 
relatively modest. For example, without these investments, it has been 
estimated that responding to an initially undetected and consequently 
uncontrolled anthrax attack that results in infecting 100,000 people 
could cost $26 billion.
                        public health leadership
    As the nation's disease prevention and control agency, it is CDC's 
responsibility to provide national leadership in the public health and 
medical communities in a concerted effort to detect, diagnose, respond 
to, and prevent illnesses, including those that occur as a result of a 
deliberate release of biological or chemical agents. This task is an 
integral part of CDC's overall mission to monitor the health of the 
U.S. population.
    In 1998, CDC issued ``Preventing Emerging Infectious Diseases: A 
Strategy for the 21st Century,'' which describes CDC's plan for 
combating today's emerging diseases and preventing those of tomorrow. 
If focuses on four goals, of each which has direct relevance to 
preparedness for bioterrorism: disease surveillance and outbreak 
response; applied research to develop diagnostic tests, drugs, 
vaccines, and surveillance tools; infrastructure and training; and 
disease prevention and control. This plan emphasizes the need to be 
prepared for the unexpected--whether it be a naturally occurring 
influenza pandemic or the deliberate release of anthrax by a terrorist. 
Copies of this CDC plan have been provided to the Subcommittee.
     strengthening public health readiness to address bioterrorism
     Increased vigilance and preparedness for unexplained illnesses is 
an essential part of the public health effort to protect the American 
people against bioterrorism. Toward this end, CDC, working in 
collaboration with State and local health departments, many other 
public health partners, and other Federal agencies, has begun the 
effort to upgrade national public health capabilities to respond to 
biological and chemical terrorism.
    Further, because terrorists employ a wide range of biological and 
chemical agents, this country's infectious disease surveillance 
networks must have enhanced capacity to detect unusual events, 
unidentified agents, and unexplained illnesses. In addition, State and 
Federal epidemiologists must be trained to consider unusual or rare 
threat agents when a suspicious outbreak occurs and be prepared to 
address questions related to their transmission, treatment, and 
prevention.
                  focus areas for public health action
    In December 1998, CDC established the Bioterrorism Preparedness and 
Response Activity (BPRA), to lead an agency-wide effort to prepare for 
and respond to acts of terrorism that involve actual, threatened, or 
suspected uses of biological or chemical agents. BPRA is charged with 
the coordination of CDC's epidemiological and laboratory response 
following a suspected or actual attack and response to health threats 
from unknown biological or chemical agents.
    In February, in an effort to provide support and assistance to 
State and large metropolitan health departments in enhancing their 
ability to be prepared for and respond to a terrorist attack that 
involves a biological or chemical agent, CDC announced the availability 
of nearly $41,000,000 in Public Health Preparedness and Response to 
Bioterrorism cooperative agreement funds. This announcement, along with 
other extramural and intramural strategies, focuses on strengthening 
four components of the public health infrastructure to improve the 
national capacity to address biological and chemical terrorism.
Detection of unusual events
    Because the initial detection of a biological or chemical terrorist 
attack will most likely occur at the local level, it is essential to 
educate and train members of the medical community--both public and 
private--who may be the first to examine and treat the victims. It is 
also necessary to upgrade the surveillance systems of State and local 
health departments, which will be relied upon to spot unusual patterns 
of disease occurrence and to identify any additional cases of illness 
as the disease spreads throughout the community and beyond.
    To enable States and major cities to build core capacity to monitor 
and detect potential biologic and chemical threat agents, CDC will make 
up to 30 awards as a part of the Public Health Preparedness and 
Response to Bioterrorism cooperative agreement. CDC will also lead the 
development of new disease surveillance networks in hospitals and other 
health care facilities and will evaluate new surveillance mechanisms to 
improve the nation's ability to detect low incidences of unexplained 
illnesses.
Investigation and containment of outbreaks
    The initial response to an outbreak caused by an act of chemical 
and biological terrorism will take place at the local level. In the 
most likely scenario, CDC--as well as DOD and security agencies--will 
be alerted to a bioterrorist attack only after a State or local health 
department has recognized a cluster of cases that is highly unusual or 
of an unknown cause. For this reason, it is imperative that State and 
local health departments have sufficient resources to conduct 
epidemiologic investigations.
    Through the cooperative agreement and other mechanisms, CDC will 
provide State and large metropolitan health departments with tools, 
training, and financial resources for local outbreak investigations, 
and help develop rapid public health response capacity at the local, 
State, and Federal levels. Additionally, in the event of a suspected or 
an actual attack, CDC will be prepared to assist State health 
departments in identifying threat agents and their modes of 
transmission, in instituting control measures, and in providing 
consultation on medical management.
    CDC is also working to establish a National Pharmaceutical 
Stockpile which will ensure the availability of drugs, vaccines, 
prophylactic medicines, chemical antidotes, medical supplies, and 
equipment that might be needed in a medical response to a biological or 
chemical terrorist incident.
Laboratory diagnosis
    In the event of a biological or chemical terrorist attack, rapid 
diagnosis will be critical, so that prevention and treatment measures 
can be implemented quickly. CDC will fund approximately 34 State and 
major metropolitan health departments under the cooperative agreement 
to improve capacity to diagnose biologic threat agents. At the same 
time, CDC will make up to four additional awards to enable selected 
State health laboratories to function as reference facilities for the 
identification of chemical threats. In addition to evaluating 
technology for identifying priority biological agents, CDC will develop 
a Rapid Toxic Screen that can assess exposure to 150 different chemical 
agents. CDC will develop guidelines and quality assurance standards for 
the safe and secure collection, storage, transport, and processing of 
biologic and environmental samples. Working with other federal 
partners, CDC will develop a Rapid Assay and Technology Transfer 
laboratory to quickly identify pathogens and chemicals that might be 
used by terrorists and to serve as a triage laboratory.
    Finally, CDC is working with public health partners to plan the 
development of a multi-level network of laboratories which will be used 
to provide the most immediate diagnosis of a biological agent in the 
event of a suspected terrorist attack. This network will ultimately 
include hospital laboratories, commercial reference laboratories, State 
and local health laboratories, and highly specialized Federal 
facilities. It will not only enhance public health capacity to address 
bioterrorism, but also contribute to the overall public health capacity 
to address naturally occurring infectious diseases.
Coordination and Communication
    In the event of an intentional release of a chemical or biological 
agent, rapid and secure communications will be especially crucial to 
ensure a prompt and coordinated response. Thus, strengthening 
communication among clinicians, emergency rooms, infection control 
practitioners, hospitals, pharmaceutical companies, and public health 
personnel is of paramount importance. In order to assure the most 
effective response to an attack, CDC will work closely with the FBI, 
which will take the lead in the criminal investigation of a terrorist 
attack, and with other government agencies, including the Food and Drug 
Administration (FDA), National Institutes of Health (NIH), DOD, and the 
Federal Emergency Management Agency.
    In the event of a terrorist attack, we will need to ensure that the 
public is provided with accurate and timely information. An act of 
terrorism is likely to cause widespread panic, and on-going 
communication of accurate and up-to-date information will help calm 
public fears and limit collateral effects of the attack.
    Internationally, global health security will be enhanced as CDC, in 
collaboration with the World Health Organization, responds throughout 
the world to reports of illnesses from unusual pathogens, suspected 
bioterrorism, and other outbreaks that might threaten the U.S. 
population.
                       planning and preparedness
    CDC is working to ensure that all levels of the public health 
community--Federal, State, and local--are prepared to work in 
coordination with the medical and emergency response communities to 
address the public health consequences of biological and chemical 
terrorism. CDC will assist States and major cities in developing local 
public health bioterrorism preparedness plans that are well integrated 
into existing emergency response plans at the local, State, and Federal 
level. CDC is creating diagnostic and epidemiological performance 
standards for State and local health departments and will help States 
conduct drills and exercises to assess local readiness for 
bioterrorism.
    In addition, CDC, NIH, DOD, and other agencies are supporting and 
encouraging research to address scientific issues related to 
bioterrorism. For example, for several of the agents likely to be used 
as bio-weapons, we need to create rapid, simple, low-cost diagnostic 
kits that can be used in the field to test large numbers of people 
exposed to a biological or chemical agent within a short time frame. In 
some cases, new vaccines, antitoxins, or innovative drug treatments are 
also required. Moreover, we need to learn more about the pathogenesis 
and epidemiology of these rare diseases. We also have only limited 
knowledge about how artificial methods of dispersion may affect the 
infection rate or virulence of these diseases.
                           disease prevention
    Disease experts at CDC are considering various strategies for 
preventing the spread of disease during and after bioterrorist attacks. 
Strategies under evaluation include: creating protocols for immunizing 
at-risk populations, isolating large numbers of exposed individuals, 
and reducing occupational exposures; assessing methods of safeguarding 
food and water from deliberate contamination; and exploring ways to 
improve linkages between animal and human disease surveillance networks 
since threat agents that affect both humans and animals may first be 
detected in animals.
    CDC is enhancing its ongoing efforts to foster the safe design and 
operation of Biosafety Level 3 and 4 laboratories, which are required 
for handling dangerous pathogens.
                              conclusions
    In conclusion, the best public health method to protect, respond, 
and defend the health of civilians against chemical and biological 
terrorism is the development, organization, and enhancement of life-
saving public health prevention tools. Such tools include expanded 
State public health laboratory capacity, increased surveillance and 
outbreak investigation capacity, and health communications and training 
at the local, State, and Federal levels. The tools we develop in 
response to bioterrorism threats are ``dual use'' tools. Not only will 
they ensure that we are prepared for man-made threats, but they also 
ensure that we will be able to recognize and control the naturally 
occurring emerging infectious diseases and the hazardous materials 
incidents of the late 20th century. A strong and flexible public health 
infrastructure is the best defense against any disease outbreak.
    Thank you very much for your attention. I will be happy to answer 
any questions you may have.

    Senator Sessions. Mr. Cragin.

                 STATEMENT OF CHARLES L. CRAGIN

    Mr. Cragin. Chairman Sessions, Chairman Kyl, Senator 
Feinstein, thank you very much for inviting me to appear before 
you today to discuss some of the activities of the Department 
of Defense. I have submitted a prepared statement and I would 
request that it be entered into the record of this hearing.
    Let me try to summarize the Department's overall approach 
to domestic WMD preparedness. Since President Clinton signed 
Presidential Decision Directive 62 last May, significant 
advances have taken place in regard to our efforts to support 
State and local authorities. PDD-62, also known as the 
Combatting Terrorism Directive, highlighted the growing threat 
of unconventional attacks against the United States. It 
detailed a new and more systematic method of fighting terrorism 
here at home, and it brought about a program management 
approach to our national counterterrorism efforts.
    The directive, as you are aware, also established within 
the National Security Council the Office of the National 
Coordinator for Security, Infrastructure Protection and 
Counterterrorism, who is tasked with overseeing these efforts. 
Secretary Cohen, our Deputy Secretary, John Hamre, Attorney 
General Reno, FEMA Director Witt and Director Clarke at the NSC 
are thoroughly engaged and are giving the challenges associated 
with this process their direct and continuing attention.
    With the interagency coordination process having been 
formalized under the auspices of the NSC, multiple subgroups 
have been formed to implement the guidance provided by PDD-62. 
This new approach helps to ensure a cohesive effort, and for 
the first time it integrates Federal efforts to provide support 
to State agencies and local first responders. I have observed 
firsthand that this structure can work and that we are making 
important headway.
    For example, since 1997 the Department of Defense has been 
responsible for administering the Domestic Preparedness 
Program, which provides WMD preparedness training for 120 of 
America's largest cities and was referred to by Senator Kyl. 
This program, founded on legislation sponsored by Senators 
Nunn, Lugar and Domenici, focuses on providing initial 
awareness, protection, decontamination and detection training.
    The U.S. Army Soldier and Biological Chemical Command and 
the Army's Director of Military Support serve as the 
Department's principal agents for executing this training 
program. It includes subject matter experts who can provide 
expertise and ideas in the areas of medicine, public health, 
law enforcement, and nuclear, chemical and biological response. 
In fiscal year 1997 and fiscal year 1998, the Department spent 
$79 million in support of this Domestic Preparedness Program. 
In fiscal year 1999, the Department will spend $50 million, and 
in fiscal year 2000 we plan to spend $31.4 million.
    The interagency continues to support our execution of this 
program. To date, 53 cities have participated in the training, 
and more than 15,000 first responder trainers have been 
trained. Additionally, an annual Federal, State and local 
exercise is held to improve the integration of Federal, State 
and local response assets during a WMD response. In fiscal year 
1997, the exercise was held in conjunction with the Summit of 
the Eight in Denver. The fiscal year 1998 exercise was held in 
September, in Philadelphia, and the fiscal year 1999 exercise 
is going to be held this August. It will be a biological 
exercise and will be held in New York City.
    Other components of the Domestic Preparedness Program 
provide direct support and assistance to the first responder 
community. These include the Improved Response Program and the 
Expert Assistance Program. The Improved Response Program 
provides real-world solutions to improve first responder 
survivability, and also response to WMD incidents. Problems in 
WMD tactics, procedures and equipment that are discovered 
through the exercises such as the one that Senator Kyl alluded 
to are resolved through technical investigation, rapid 
prototyping and additional exercises.
    The Expert Assistance Program provides direct technical 
support to the first responder community. This includes 
equipment testing to validate manufacturers' claims for 
protective equipment and chem-bio agent detectors, as well as 
support for a national hotline for emergencies, a national help 
line for assistance, and Web pages containing authoritative 
technical information needed by first responders.
    The interagency participates in these training activities 
as their time and resources permit, but the first responders 
have asked for more. Without exception, the number one request 
of first responders, as Ms. Martinez mentioned, has been for 
the identification of a single Federal agency to lead the 
training and the equipping of first responders. In their words, 
they seek the ease, the convenience and the predictability of 
one-stop shopping.
    Well, in an effort to respond to this need, the Department 
of Defense and the Department of Justice are now in the process 
of finalizing an interagency agreement under which the 
Department of Justice, beginning in October of the year 2000, 
will replace the Department of Defense as the lead Federal 
agency for this Federal domestic preparedness training program.
    Although our negotiations are not yet concluded, plans for 
transitioning responsibility for the DPP program to the 
Department of Justice have gone extremely well. The transition 
plan will be developed whereby DOD will retain responsibility 
for the city training and the equipping program until the end 
of fiscal year 2000, at which time the Department of Justice 
will honor the commitment to train the remainder of the 
originally designated 120 cities.
    During the fiscal year 2000 transition period, the 
Department of Justice will coordinate with DOD in the city 
training planning phases and will begin to provide grant 
funding for equipment for training. The transition will occur 
in stages to accommodate existing budgets and program plans.
    DOD focus, beginning in fiscal year 2001, will be to 
continue to enhance the readiness of its WMD response units, as 
well as its installation responders. The Department of Justice 
will contribute funding to benefit from the lessons learned 
from the improved response program beginning in fiscal year 
2001. Joint planning will be conducted through a multi-agency 
task force to coordinate both the improvements of State and 
local response capabilities and DOD's efforts to enhance its 
response elements.
    Mr. Chairman, I would be happy to respond to your 
questions. I know my time is up for my opening statement, but I 
look forward to your inquiries.
    Senator Sessions. Thank you. We appreciate that, and just 
one question. The Department of Defense willingly even 
requested that another agency take over this problem, is that 
correct?
    Mr. Cragin. I don't think it would be accurate to 
characterize it as a request, Mr. Chairman. I think what 
transpired is that as part of the studies that were ongoing at 
the Department of Defense, we met with many first responder 
representatives from around the Nation. We also were receiving 
input through the after-action reports as we trained the 
various cities with respect to the DPP.
    At the same time, the Department of Justice was conducting 
first responder focus groups, for a number of reasons, 
including the fact that the Attorney General had been tasked 
with developing a 5-year counterterrorism plan. To a person, 
the consistent consensus was one-stop shopping. We have 
confusion, we have division. We need to have a consistent 
conduit for our activities.
    Dr. Hamre, Attorney General Reno, James Lee Witt, the FEMA 
Director, Bear Bryant from the FBI, and Dick Clarke met to 
discuss this and there was a consensus developed that it would 
be best to transfer the training aspect to the Department of 
Justice, inasmuch as it was being tasked on a continuing and 
escalating basis to provide equipment to first responders. So 
we really had the disconnect of one entity was doing the 
training and another entity was doing the equipping. And as I 
said, everybody reached the consensus we needed one-stop 
shopping.
    Senator Sessions. Well, I think Dr. Hamre raised a question 
or made the point--I think it was in his testimony that it was 
a bit beyond the normal demands on the military to conduct a 
national training program. He felt comfortable or he thought it 
was a good idea to shift it to another agency.
    Mr. Cragin. That is right.
    [The prepared statement of Mr. Cragin follows:]

                Prepared Statement of Charles L. Cragin

    Good afternoon, Chairman Sessions and Chairman Kyl.
    Let me begin by thanking you both for inviting me to discuss the 
role of the Department of Defense in supporting the nation's domestic 
emergency preparedness to respond to incidents involving weapons of 
mass destruction.
    In the wake of the bombings at the Murrah Federal Building in 
Oklahoma City and the World Trade Center in New York, it became readily 
apparent that we as a nation were less than well prepared to respond to 
terrorist incidents involving WMD. As a result, President Clinton has 
undertaken significant efforts to galvanize federal agencies and prompt 
them to work more effectively, both together at the interagency level 
and in support of first responders, to provide our nation with an 
enhanced, flexible and integrated response capability.
    As a nation, we are also facing the fact that the front lines in 
the war against terrorism are no longer only overseas-they are also 
right here at home. As Secretary Cohen recently said, we must face the 
fact that ``the next terrorist attack will come to U.S. soil in a 
bottle or a briefcase.'' I believe our heightened security measures for 
next weekend's NATO conference here in Washington provides ample 
evidence of our concern for terrorist activities right here at home. We 
are determined to ensure that we are prepared for a deadly chemical or 
biological attack against our country. A comprehensive and coordinated 
government-wide interagency effort is now underway. I'm going to make 
that the focus of my testimony today.
    Under the direction of President Clinton and Secretary Cohen, and 
in partnership with Congress, plans, policies and laws are being 
developed or revised to help us prepare better for the day when 
terrorists or rogue nations attack with unconventional means. President 
Clinton believes we must do more to protect our civilian population 
from the scourge of chemical and biological weapons, and that we must 
prepare better to respond to attacks against our Homeland. Last May, in 
his commencement address at the Naval Academy, the President announced 
that the government would do more to protect our civilian population 
from these threats.
     process for coordinating interagency wmd preparedness efforts
    Specifically, the President has signed Presidential Decision 
Directive 62 (PDD 62)--the Combating Terrorism directive--which 
highlights the growing threat of unconventional attacks against the 
United States. In essence, PDD-62 helps bring a program management 
approach to our national counter-terrorism efforts; it details a new 
and more systematic method of working together to fight terrorism here 
at home.
    PDD-62 established the Office of the National Coordinator for 
Security, Infrastructure Protection and Counter-Terrorism to oversee 
national counter-terrorism efforts. This National Security Council 
(NSC)--directed framework is bringing a new impetus and a new urgency 
to our efforts to support state and local authorities. Within this 
framework, the NSC established three senior management groups: The 
Counterterrorism Security Group (CSG), the Critical Infrastructure 
Coordination Group (CICG), and the Weapons of Mass Destruction 
Preparedness (WMDP) Group. The NSC chairs all three of these groups; 
and each group has multiple subgroups.
    The NSC-chaired WMDP senior management group coordinates 
interagency WMDP policy issues and oversees the activities of seven 
subgroups. These subgroups are engaged in coordinating policies 
involving federal assistance to state and local authorities, research 
and development, prevention of WMD from entering the US, security of US 
WMD facilities and materials, contingency planning and exercises, 
legislative and legal issues, and intelligence. Each subgroup 
membership is comprised of the appropriate federal agency/department 
principals and/or their senior level representatives who can accept or 
deliver tasks for action. The DoD is an active participant in all of 
these subgroups, which at its core, operates on the assumption that 
disaster response is primarily a mission for state and local 
authorities. As Deputy Secretary of Defense Hamre emphasized during his 
testimony before the Senate Armed Service Committee on March 9, the 
role of the Department of Defense is to support other federal, state 
and local civilian agencies and officials.
    Within the DoD, Dr. Hamre issued an internal management plan for 
implementing its responsibilities as outlined in PDD-62 and to better 
coordinate DoD-wide WMDP activities. This management plan identified 
DoD senior management committees and subject matter subgroups that 
mirror the PDD-62 committee and subgroup structure established by the 
National Security Council (NSC).
    I am responsible, along with a representative of the Secretary of 
the Army, for coordinating the Department's WMDP efforts involving 
assistance to state and local authorities, and for representing those 
activities at the National Security Council's interagency Assistance to 
State and Local Authorities Subgroup. I also held to coordinate WMDP 
activities Department-wide and participate on the NSC's WMDP senior 
management committee.
    PDD-62 and the implementing guidance clearly provided the 
interagency with a more rigorous management structure for coordinating 
and promulgating national domestic preparedness programs and policies. 
As always, however, our efforts are designed to support--not supplant--
the efforts of state and local agencies and first responders.
    The world of domestic preparedness and response is highly dynamic. 
No single agency acting alone can address the problem in its entirety. 
As a result, we are in the process of deepening our interagency ties 
and developing a coordinated approach. We at the Department of Defense 
realize that this approach is necessary if we are to avoid confusion, 
both within the federal government and in terms of our ability to 
communicate effectively with the first responder community. We are 
working hard to understand the concerns of the state and local 
authorities regarding the federal role in the process. In many respects 
we share the same concerns, especially regarding the need for a lead 
federal agency for WMD and the need for the federal government to speak 
with one voice on this vital issue.
    The Department, along with its federal agency partners; DOJ, FEMA, 
PHS, DOE, EPA, and others are working hard to ensure that we address 
problems through a coordinated approach. Both the Department of Defense 
and the Department of Justice have conducted forums with first 
responders. Without exception, the number one request of first 
responders has been for the identification of a single federal agency 
to lead the training and equipping of first responders. In their words, 
they have sought the ease, convenience and predictability of ``one stop 
shopping.''
    In an effort to respond to this need, the Department of Defense and 
the Department of Justice have agreed in principle to establish the DOJ 
as the lead federal agency for the federal WMD domestic preparedness. 
Within that framework, the Attorney General has proposed the 
establishment of the National Domestic Preparedness Office (NDPO), 
which is up and running at FBI headquarters and is even now furthering 
the integration of our national response efforts. In fact, just last 
week, the NDPO conducted a three-day training session right here in 
Washington for the FBI WMD field coordinators to provide them 
information on interagency assets and capabilities.
                   the domestic preparedness program
    The Defense Against Weapons of Mass Destruction (WMD) Act of 1996 
(Public Law 104-201) authorized Federal agencies to provide resources, 
training and technical assistance to state and local emergency 
management personnel who would respond to a WMD terrorist incident. The 
Act, sponsored by Senators Nunn, Lugar and Domenici, mandated that the 
United States enhance its capability to respond to domestic terrorist 
incidents involving nuclear, biological, chemical and radiological 
weapons. The legislation designated DoD as the interagency lead to 
carry out a program to provide civilian personnel from federal, state 
and local agencies with training and expert advice regarding emergency 
responses to a use or threatened use of WMD or related materials. This 
interagency effort resulted in the establishment of the ``train the 
trainer'' program we call the Domestic Preparedness Program (DPP). In 
the planning stages of this program, it was agreed that training 
priority would be given to the largest population centers of the U.S. 
This translated into a program plan to provide initial training and 
preparedness assistance for Domestic WMD response for the 120 largest 
(according to census data) cities in the U.S. The U.S. Army Soldier and 
Biological Chemical Command, and the Army's Director of Military 
Support have been and will continue to serve as principal agents within 
the Department for executing the program. In fiscal year 1997 and 
fiscal year 1998, the Department spent $79M in support of this domestic 
preparedness program, in fiscal year 1999, the Department will spend 
$50M, and in fiscal year 2000 we plan to spend $31.4M.
    My office provides policy guidance and oversight of the city 
training/exercises, equipment loans, and expert assistance program 
aspects of the Domestic Preparedness Program, while the Assistant 
Secretary of Defense (Special Operations/Low Intensity 
Conflict)provides oversight for the annual Federal-State-Local exercise 
mandated by law for the program. The Secretary of Defense designated 
the Secretary of the Army as the Executive Agent for implementing the 
program. The Director of Military Support (DOMS) is the Staff Action 
Agent and the Commander of the Soldier and Biological Chemical Command 
(SBCCOM) is the Program Director for the Domestic Preparedness Program.
    The interagency continues to support our execution of this program. 
Specifically, they participated with us in the development of our 
approach for executing this program, which includes initial visits to 
selected cities, a week of ``Train the Trainer'' training for local 
first responder trainers, including hazardous material (HAZMAT), 
firefighters, law enforcement, and emergency medical service personnel. 
Tabletop and functional ``hands-on'' exercises using chemical and 
biological scenarios further reinforce this training. A training 
equipment package is loaned to each city for their subsequent training 
use. To date, 53 cities have participated in the training and more than 
15,000 first responder trainers have been trained.
    Additionally, an annual federal, state, and local exercise is held 
to improve the integration of federal, state, and local response assets 
during a WMD response. In fiscal year 1997, the annual exercise was 
held in conjunction with the ``Summit of the Eight'' Conference in 
Denver, CO (May 1997). The fiscal year 1998 exercise was held in 
September 1998 in Philadelphia, PA. The fiscal year 1999 exercise is 
scheduled for August 1999 in New York City, NY.
    Other component elements of the DP program include the Improved 
Response Program (IRP) and the Expert Assistance Program. The Improved 
Response Program involves the performance of technical investigations 
and exercises geared to improve first responder survivability and 
response to WMD incidents. The IRP has provided practical real world 
solutions to problems in WMD tactics, procedures and equipment 
discovered through the DP training. Testing to validate equipment 
protection and detection claims is being conducted as part of the 
Expert Assistance Program. The Expert Assistance Program also provides 
support for a national Hotline for emergencies, a Helpline for 
assistance, and web pages that provide technical information needed by 
first responders.
    In September 1998, key representatives from the Department of 
Justice, the Federal Bureau of Investigation, the Federal Emergency 
Management Agency, the National Security Council Director (Mr. Clarke) 
and the Department of Defense met to discuss how these agencies could 
best work together to combat domestic terrorism. It was agreed in 
principle that the Department of Justice (DoJ) should assume leadership 
for implementing the nation's domestic preparedness program. This 
agreement would have the added benefit of placing responsibility for 
federally supported WMD training and equipping in one location, as part 
of the ``one-stop'' shop consistently requested by first responders. 
DoD has worked in concert with the Office of Justice Programs and the 
National Domestic Preparedness Office to develop a formal memorandum of 
understanding that will transfer most facets of DoD's Domestic 
Preparedness program to DoJ.
    Although our negotiations are not yet concluded, so far the joint 
DoJ-DoD plan for transitioning responsibility for this program has gone 
extremely well. We expect the Memorandum of Understanding guiding this 
transfer will be finalized this summer. DoD will retain responsibility 
for the city training and equipping program until end of fiscal year 
2000, at which time DoJ will honor the commitment to train the 
remainder of the originally designated 120 cities. During the fiscal 
year 2000 transition period, DoJ will coordinate with DoD in the city 
training-planning phases and will begin to provide grant funding for 
training equipment. The transition will occur in stages to accommodate 
existing budgets and program plans.
    DoD's focus beginning in fiscal year 2001 will be to continue to 
enhance the readiness of its WMD response units and installation 
responders. DoJ will focus on the response at the local and state 
levels. As a result, both agencies will contribute funding to benefit 
from the lessons learned from the improved response program of the DP 
program beginning in fiscal year 2001. Joint planning will be conducted 
through the Multi-Agency Task Force to coordinate both the improvements 
of state and local response capabilities and DoD's efforts to enhance 
its response elements.
    Beginning in fiscal year 2001, DoJ will assume funding and 
programmatic responsibility for the Hotline, Helpline and Internet web 
site, but DoD will retain funding and programmatic responsibility for 
the chemical-biological database and the equipment testing program, as 
these program elements are integral to satisfying independent DoD 
needs. DoJ will coordinate with DoD in joint planning efforts so that 
the state and local responder communities will continue to benefit from 
the expert assistance functions. DoD will enhance its domestic chem/bio 
response capabilities through the CB-RRT by continuing to train, 
exercise, and maintain this team.
    Checks and balances are built into the staged approach to the 
transition. DoJ will coordinate with DoD throughout fiscal year 2000 
and participate in joint planning as articulated in the finalized 
Memorandum of Understanding, which we hope to complete in early summer.
    From joint publications to field manuals, from schools to staff 
colleges, we are working to embed WMD preparedness procedures and 
training into the way we do business. This effort is particularly 
pronounced at those schools that produce qualified personnel to perform 
WMD functions. The training of the Rapid Assessment and Initial 
Detection (RAID) teams and other elements will mirror our efforts to 
work across both Service and interagency lines to develop mutually 
supportive programs. We are working to ensure that the WMD responders, 
people at the local, state and federal levels, are prepared to work 
together to meet the needs of the people affected by a WMD attack. 
Extensive training will include teaching and course work provided by 
the Army Chemical School, and Defense Nuclear Weapons School, the Army 
Medical Department, the Environmental Protection Agency, the National 
Fire Academy, the US Army Medical Research Institute for Infectious 
Diseases, FEMA, and the Department of Justice's Center for Domestic 
Preparedness.
   the role of the national guard and reserve in domestic emergency 
                              preparedness
    One effective means of channeling federal support to first 
responders will come through the National Guard and Reserve. The Guard 
is the tip of our military response spear and, as such, will usually be 
the first military asset on the scene. Indeed, as Dr. Hamre, the Deputy 
Secretary of Defense, mentioned in his recent testimony before the 
Senate Armed Services Committee, the National Guard and Reserve forces 
are ``forward deployed all over America.'' When it comes to WMD 
response, the members of our National Guard and our other Reserve 
components are ideally suited for the mission. They live and work in 
more than four thousand communities nationwide. They are familiar with 
emergency response plans and procedures. And they often have close 
links with the fire, police, and emergency medical personnel who will 
be first on the scene. As a result, the Guard and Reserve comprise a 
highly effective source of trained and ready manpower and expertise.
    For example, over half our total military medical capability is 
resident in the Reserve components. In the event of a WMD event, 
casualties may be enormous--and we will need to call on Reserve 
component medical expertise and equipment. The Reserve components, 
predominantly the Army Reserve, also have more than sixty percent of 
our military chemical-biological detection and decontamination assets. 
They will be essential providers of support to state and local 
authorities in the event of a WMD incident.
    To better harness these inherent capabilities and make our national 
plans for WMD response more effective, last May President Clinton 
announced the establishment of ten RAID teams. These teams are designed 
to be assets of the Governors as they perform three vital tasks. First, 
they will deploy rapidly to assess suspected radiological, biological 
or chemical events--in support of the local incident commander. Second, 
they will advise civilian first responders regarding appropriate 
actions. And third, they will facilitate requests for assistance. Each 
RAID team will be composed of 22 full-time National Guard soldiers and 
airmen. The units will be fully mission capable in January 2000.
    In fiscal year 2000 we will be requesting permission for five 
additional RAID teams to be organized. Congress must approve additional 
full-time National Guard positions for these teams. Stationing of these 
additional elements is currently being analyzed.
    Additionally, each of the Reserve components is being called upon 
to play an expanded role in WMD response. The Department of Defense in 
fiscal year 1999 and fiscal year 2000, will train and equip 43 Nuclear, 
Biological, and Chemical reconnaissance elements and 127 
decontamination elements in the Army Reserve, Air Force Reserve, Army 
National Guard and Air National Guard, enabling them to more 
effectively respond to a WMD attack.
    In addition, and at the direction of Congress, the Department is 
working to establish 44 military support detachments, which we refer to 
as RAID (Light) teams. These teams are being established as part of our 
overall effort to develop a nation-wide response capability that has 
strong roots in the local and state first-responder community. They 
will be establishedusing traditional National Guardsmen and will be 
built on the RAID model but tailored to the specific needs of each of 
the States and territories where a RAID team was not placed. The RAID 
(Light) teams will be structured and trained to provide a modest 
planning and assessment capability in every state and territory.
    In the area of resources and resource management, an interagency 
board (IAB) was convened to develop a standardized equipment list (SEL) 
for domestic response elements. This list provides both military and 
other interagency partners the opportunity to procure standardized 
equipment to ensure interoperability between response organizations. 
Ultimately this list will also support the requirements of state and 
local first responder organizations.
    DoD also has a limited stockpile of medical supplies and protective 
gear, which can be used in a WMD incident, upon approval of the 
Secretary of Defense. We are also conducting research and development 
through the Counterterrorism Technical Support Program and the 
Technical Support Working Group (TSWG) to develop personnel protection, 
agent detection and identification equipment, and mitigation and 
decontamination equipment for use by first responders. The support 
provided by DoD will be based upon the resources within the department, 
our immediate proximity to a situation, or the nature and scope of the 
situation. It is important to note again, however, that DoD remains a 
supporting player in the larger combined federal effort.
    Congress, in the Strom Thurmond National Defense Authorization Act 
of 1999, directed the establishment of an advisory panel to assess 
domestic response capabilities for terrorism involving weapons of mass 
destruction. This legislation directed the Secretary of Defense, in 
consultation with the Attorney General, the Departments of Energy and 
Health and Human Services, and FEMA, to contract with a federally 
funded research and development center (FFRDC), to establish the panel 
and support it for its three-year life cycle. The panel is composed of 
private citizens who have knowledge and expertise in emergency response 
matters. The panel is required to provide to Congress an initial report 
within 6 months of their first meeting, and 3 annual reports. The 
reports will make recommendations to the President and Congress for 
improving Federal, State, and local domestic emergency preparedness to 
respond to incidents involving WMD. The RAND Corporation has been 
selected to establish and support the membership of the panel, and the 
panel will hold its first meeting in early June.
    The Department of Defense is committed to work with our interagency 
partners to establish effective national domestic programs and policies 
that will enhance the preparedness at all levels of government to 
respond to the awful consequences of a WMD attack. I thank you for the 
opportunity to speak to you today, and I stand ready to respond to any 
questions you may have.

    Senator Sessions. Andy, your comments, please.

                   STATEMENT OF ANDY MITCHELL

    Mr. Mitchell. Thank you. Chairman Sessions, Chairman Kyl, 
good afternoon. On behalf of Attorney General Reno and 
Assistant Attorney General Laurie Robinson, I am pleased to be 
here today to discuss our programs that are dedicated to 
enhancing the capabilities of State and local first responders 
throughout this Nation. I have submitted a written statement 
for the record.
    In 1998, the Attorney General delegated authority for key 
facets of the Department of Justice's Domestic Preparedness 
Program to the Assistant Attorney General in the Office of 
Justice Programs, who in turn proposed the creation of the 
Office for State and Local Domestic Preparedness Support, a 
program office to develop and administer critically needed 
financial and training support to the Nation's first 
responders.
    Under this initiative, OJP is focusing on interrelated 
areas. First, we are conducting needs assessments on a 
national, State and local level to help allocate resources and 
direct our design of training and exercise programs to meet the 
needs of the first responders as they define those needs.
    Second, the office is providing financial assistance to 
enable State and local jurisdictions to buy much needed 
specialized equipment. In fiscal year 1999, OJP's plan will 
award nearly $90 million to over 370 cities and counties in all 
50 States, including each State capital, as well as grants to 
the 50 States to allow them to begin to address the equipment 
needs of the balance of jurisdictions within their respective 
States. We feel this approach provides a solid framework for 
building enhanced capacity nationwide, not just in a select 
number of jurisdictions.
    Third, OJP offers a broad spectrum of training to ensure 
that State and local emergency response personnel and public 
officials have the knowledge, skills and abilities necessary to 
respond more safely and effectively to a terrorist incident.
    Fourth, OJP will support State and local exercises to 
provide an opportunity to identify strengths and weaknesses 
within State and local emergency response plans and to test 
their response capabilities and structures.
    And, fifth, we will offer technical assistance to help 
transfer knowledge and assist State and local agencies to make 
critical decisions domestic preparedness requires.
    In delivering this training and equipment to emergency 
personnel, OJP will closely coordinate and cooperate with the 
Department's National Domestic Preparedness Office which has 
been proposed, as Barbara has discussed, to coordinate Federal 
domestic preparedness initiatives and to serve as that single 
point of contact for first responders for information on 
Federal preparedness programs.
    In formulating these plans, OJP has strived to make sure 
that the efforts of existing and anticipated domestic 
preparedness programs sponsored by other Federal agencies are 
considered. We are working closely with NDPO and the 
interagency family to ensure that our programs are integrated 
with these efforts and that program funding is maximized to 
deliver the best training available.
    In particular, the Department of Defense and the Department 
of Justice are planning the transfer of the Nunn-Lugar-Domenici 
Domestic Preparedness Program. I am confident that the program 
transition will be seamless and result in a much more robust 
and comprehensive Federal training program for the Nation's 
first responders, enabling OJP to integrate our training and 
other domestic preparedness assets with the Domestic 
Preparedness Program implementation.
    I also want to mention the National Domestic Preparedness 
Consortium and its vital role in providing specialized training 
to the Nation's first responders. Each of the five consortium 
member institutions--Louisiana State University, Texas A&M 
University, the New Mexico Institute of Mining and Technology, 
the Department of Energy's Nevada test site, and the Office of 
Justice Programs Center for Domestic Preparedness--has unique 
capabilities and expertise that will contribute to a more 
diverse, well-rounded training program for the first response 
community.
    For example, OJP's Center for Domestic Preparedness at Fort 
McClellan, AL, provides the ability to conduct training in a 
live chemical agent environment and to conduct field exercises, 
critically necessary training which can only be provided 
through this unique facility. In less than a year of 
operation,the Center has already trained nearly 1,000 first 
responders in advanced operations, incident command and 
incident management.
    Throughout the development of OJP's programs, we have made 
every effort to keep in close touch with those that we are here 
to serve, the Nation's first responders. With their help and 
constant feedback, we will continue to develop and improve our 
programs so that they can enhance the Nation's ability to deal 
with events we all hope will never occur.
    Thank you for this opportunity to discuss these programs 
and I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Mitchell follows:]

                  Prepared Statement of Andy Mitchell

    Mr. Chairman and Members of the Subcommittee. My name is Andy 
Mitchell and I am the Deputy Director of the Office for State and Local 
Domestic Preparedness Support (OSLDPS), Office of Justice Programs 
(OJP). On behalf of the Attorney General Reno and Assistant Attorney 
General Laurie Robinson, I am pleased to be with you today to discuss 
our programs that are dedicated to enhancing the capabilities of state 
and local first responders to deal with the threat of domestic 
terrorism involving weapons of mass destruction (WMD).
                                overview
    The catastrophic potential from terrorist use of Weapons of Mass 
Destruction (WMD) is great and the threat is real. The Oklahoma City 
and World Trade Center Bombings, as well as the Tokyo subway attacks, 
are vivid reminders that we are all at risk in a changing world. Since 
the beginning of this year, the Federal Bureau of Investigation has 
logged approximately one WMD threat a day. The federal government has 
responded with a number of initiatives, reflecting the sense of the 
Administration and Congress that America's civilian population is at 
risk and that communities must have adequately trained and equipped 
first responders.
    The Assistant Attorney General for the Office of Justice Programs 
is responsible for the administration of a key facet of the Justice 
Department's domestic preparedness programs, under a delegation of 
authority signed by the Attorney General on April 30, 1998. The 
Department of Justice Office of Justice Programs proposed creating the 
Office for State and Local Domestic Preparedness Support (OSLDPS) in 
1998 to deliver financial and technical support to first responder 
communities across the nation.
    Under this initiative, OJP/OSLDPS focus is pursuing five 
interrelated areas: First, OJP/OSLDPS is conducting needs assessments 
on a national, state, and local level, to help allocate resources and 
design training and exercise programs for individual jurisdictions. 
Second, OJP/OSLDPS is providing financial assistance to enable state 
and local jurisdictions to buy much-needed equipment. Third, OJP/OSLDPS 
will offer a broad spectrum of training to ensure that state and local 
emergency response personnel and public officials have the knowledge, 
skills, and abilities to enable them to respond well if terrorist 
incidents occur. Fourth, OJP/OSLDPS will offer tabletop and functional 
exercises to provide an opportunity to identify strengths and 
weaknesses within state and local emergency response plans and to 
practice response drills with key equipment before an actual event. 
And, fifth, OJP/OSLDPS will offer technical assistance to help in 
sharing the information to make the critical decisions domestic 
preparedness requires.
    OJP's legislative authority for this mission is found in three 
laws: the ``Antiterrorism and Effective Death Penalty Act of 1996,'' 
and the ``Departments of Commerce, Justice, and State, the Judiciary, 
and Related Agencies Appropriations Acts of 1998 and 1999.''
    OSLDPS, in delivering training and equipment to emergency 
personnel, will closely coordinate and cooperate with the Department of 
Justice's National Domestic Preparedness Office (NDPO), which has been 
proposed as an office to coordinate federal domestic preparedness 
initiatives and to serve as a single point of contact for first 
responders for information on federal preparedness programs.
    In formulating its plans, OSLDPS has been cognizant of the efforts 
of existing and anticipated domestic preparedness programs sponsored by 
several federal agencies. We are working with NDPO to ensure that our 
programs are integrated with these efforts. The challenge for OSLDPS is 
to incorporate the other federal initiatives into a cohesive and 
logical program that both enhances the capabilities of first responders 
and delivers appropriate training, equipment, and exercises to every 
American city, county, or state that needs this assistance.
    As part of this mission, OSLDPS is integrating new training 
initiatives into existing DOJ programs. At the beginning of fiscal year 
2001, we are planning for OSLDPS to assume responsibility for the Nunn-
Lugar-Domenici Domestic Preparedness Program, which is currently 
administered by the Department of Defense.
                              assessments
    Assessments are an effective tool for prioritizing and allocating 
resources to develop programmatic solutions (training, equipment, and 
exercises) that lessen a jurisdiction's vulnerability to possible 
terrorist WMD incidents. Assessments ensure that measures taken to 
reduce vulnerabilities are justifiable and that resources are 
appropriately targeted to address identified needs.
    Formal assessments have been largely absent from most federal 
programs directed at addressing WMD terrorism. OSLDPS views assessments 
as the cornerstone of its state and local domestic preparedness 
efforts. In fact, each application for OSLDPS grant assistance is built 
around a self-administered assessment process.
    Although it would have been ideal to do needs assessments prior to 
program implementation, immediate community needs require that some 
assessment and implementation be done concurrently.
    OSLDPS is engaged in a number of different assessment activities. 
The current ``macro-level'' needs assessment funded by OSLDPS is 
intended to provide a nationwide survey of thecurrent WMD response 
environment. OSLDPS will build on the findings of that study through a 
program of city-county-state-level needs assessments, which are 
intended to help individual jurisdictions pinpoint vulnerabilities and 
develop an objective basis for future delivery of WMD terrorism 
assistance. The resulting findings will serve not only as a road map 
for program planning, but as a benchmark for measuring program 
effectiveness.
        state and local domestic preparedness stakeholders forum
    In August 1998, the first State and Local Domestic Preparedness 
Stakeholders Forum was convened with participation from over 200 local, 
state and federal responders. The two-day conference offered a needs 
development process designed to provide an assessment of state and 
local WMD terrorism response requirements and to recommend appropriate 
federal support.
    This gathering of the nation's first responder community was, in 
essence, an expert focus group. Responders identified shortfalls or 
needs from the context of practical experience and offered recommended 
courses of action. The concerns and recommendations for action that 
emerged from that forum have provided invaluable guidance to planners 
in the development of the OSLDPS programs and to other federal 
government agencies. OSLDPS is continuing this process by maintaining 
an active feedback process, engaging with the responder community 
through effects such as the National Domestic Preparedness Consortium 
and the NDPO's Stakeholder Advisory Group.
                       national needs assessment
    The Justice Department's fiscal year 1999 appropriation provided $1 
million to conduct a national needs assessment of state and local 
agencies' equipment capability, readiness, and training needs for 
chemical, biological radiological, nuclear, and conventional explosive 
responses. The assessment planning is being coordinated with NDPO. The 
WMD assessment is being conducted in two phases. The first phase, 
already completed, collected and reviewed existing WMD assessments to 
establish a knowledge baseline and identify gaps. During the second 
phase, a new WMD needs assessment will be produced from this baseline. 
The assessment will report on equipment, training, exercises, technical 
assistance, and research and development. More communities--on a wider 
demographic and geographic scale--will be surveyed. The results will be 
reviewed through focus groups, technical experts, and FBI field office 
WMD coordinators. Implementation guidance for all the overall domestic 
preparedness program will be created from the final comprehensive WMD 
needs assessment.
                assessments related to equipment grants
    The Department of Justice equipment program was inaugurated in 
fiscal year 1998 with the appropriations of $12 million for the State 
and Local Domestic Preparedness Equipment Support Program to enhance 
first responder equipment capabilities in WMD emergencies. To receive a 
grant, jurisdictions were asked to provide a description of their 
terrorist vulnerability and risk assessments, identifying what factors 
and characteristics of their areas made them vulnerable. Jurisdictions 
then related the correlation between their equipment needs and their 
assessment of the risk.
    Applicant needs for personal protective equipment, chemical/
biological detection, decontamination, and communications equipment 
were examined using a tiered process that ranged from a basic defensive 
equipment level to more technologically advanced levels. Applicants 
move to the next tier only after the basic equipment requirements for 
the previous tier are filled.
    The 120 largest jurisdictions in the United States were eligible to 
apply for the fiscal year 1998 equipment grant program. Competitive 
grant awards were made to 41 of these jurisdictions to purchase 
equipment in four categories--personal protection, decontamination, 
detection, and communication.
    In fiscal year 1999, the State and Local Domestic Preparedness 
Equipment Support Program has expanded beyond the 120 OJP training 
jurisdictions to include 324 jurisdictions. This number includes 157 of 
the largest metropolitan jurisdictions (city and county), the 50 states 
and state capitals, and 48 jurisdictions that were included in the 120 
cities program, but are not included in the 157 largest metropolitan 
jurisdictions. The program is now called the County and Municipal 
Agency Domestic Preparedness Equipment Support Program. Applicants must 
fill out a three-year equipment projection for their jurisdiction for 
all equipment categories and assess their equipment needs based on the 
tier level assessment.
    Jurisdictions provide OJP with information on the number of HAZMAT 
teams they possess on a state and local level, as well as the number of 
tactical units, emergency medical services, law enforcement agencies, 
and fire service agencies that are within the jurisdiction. Information 
is also provided on the number of cities and counties and other areas 
that may utilize the equipment. Jurisdictions also detail and assess 
their terrorist incident training and exercise needs and describe the 
level of training required by their fire, HAZMAT, emergency medical, 
and law enforcement personnel for the next three years.
    This information allows OSLDPS to determine the WMD training that 
is available and being utilized by jurisdictions across the country. 
The assessment is also part of a larger effort to identify gaps in WMD 
training currently available to local first responders, as well as 
identifytraining resource gaps for each jurisdiction. The information 
will assist the development of new training materials and courses to 
fill the gaps.
       metropolitan fire and emergency services equipment program
    The Justice Department's fiscal year 1999 appropriation has 
allotted funding to increase municipal fire and emergency service 
departments' equipment and training program. This grant program will 
provide funds for equipment for municipal fire and emergency medical 
departments as well as providing interoperable radio equipment for 
local emergency response agencies. Applicants are divided into two 
groups. The first is composed of jurisdictions that are designated for 
training under the Nunn-Lugar-Domenici Domestic Preparedness program, 
but had not received training by the end of 1998. The second group 
encompasses the largest cities and state capitals that have not 
received any previous equipment funding from OJP. Six cities that have 
completed the Nunn-Lugar-Domenici training will receive additional 
funding to bolster the equipment already received. Applicants undergo 
the same vulnerability assessment process and tier-level review as do 
applicants to the County and Municipal Agency Domestic Preparedness 
Equipment Support Program.
                     city/county/state assessments
    OSLDPS is initiating a program of local and state assessments to 
identify and evaluate risks and capabilities, and, in turn, develop a 
catalogue of needs. These assessments will provide detailed analysis 
intended to assist with planning. Assessment teams will visit 
jurisdictions and assist local planners, responders, and policymakers 
with identifying potential problems and evaluating the communities' 
response area strengths and weaknesses. The resulting findings will 
enable local planners and policymakers to guide local resources and 
programs in the most efficient way possible, while also affording 
federal support to be more effectively targeted to address specific 
needs. We intend to formally communicate the assessment results to the 
city as a written report and as an oral presentation during the Senior 
Executive Course, which I will describe later in my testimony.
Training
    Responder training, like any other learning experience, must be 
incremental, with progressive steps in the learning process. Training 
currently being offered to address readiness for WMD terrorism is far 
from comprehensive. Federal and state programs are typically designed 
for a general audience or for a specific professional discipline or 
perspective. While all programs have merit, they leave gaps in the 
knowledge base required for an effective response to WMD. OSLDPS 
programs are designed to bridge gaps in other programs and offer new 
enhanced, specialized training. These courses are delivered through a 
variety of mechanisms.
        nunn-lugar-domenici domestic preparedness program (dod)
    DoD's Domestic Preparedness Program training is essentially entry-
level WMD training for first responders, providing concepts and raising 
hazard awareness. OSLDPS programs will provide the next tier in that 
process, offering learning opportunities to further enhance first 
responders' understanding and refine actual skills, including tactical 
and strategic responses to WMD terrorist incidents. An effort is 
underway to evaluate and, per stakeholder requests, certify effective 
training courses. As part of that process, the establishment of 
training hierarchies will assure first responders that they are 
progressing toward greater levels of proficiency.
    The Department of Defense and the Department of Justice are working 
on a Memorandum of Understanding for the transition of the Nunn-Lugar-
Domenici program, which should be completed by mid-June 1999. During 
fiscal year 2000, the program transition will begin and will be 
completed by the beginning of fiscal year 2001. The two departments are 
working well together, with excellent cooperation from DoD, which 
should make the transition seamless, with no impact on the cities 
involved with the training.
       metropolitan fire and emergency medical services training
    Jurisdictions receiving equipment grants for their fire and 
emergency medical services departments are receiving training in 
handling explosive, incendiary, chemical, and biological incidents 
through OSLDPS. This builds on the effort begun in 1997 that targeted 
the nation's 120 largest jurisdictions. OSLDPS utilizes the assessment 
information from the grant applications to create a training and 
exercise program for each jurisdiction, providing the maximum amount of 
skill development and minimizing knowledge gaps for the responders. The 
program is composed of a train-the-trainer course and direct-delivery 
course on incident management and tactical decision-making. OSLDPS also 
offers a self-study terrorism awareness course for first responders and 
its train-the-trainer course is available to state fire academy 
instructors for their classes.
                      equipment technical training
    The Office for State and Local Domestic Preparedness will also 
provide jurisdictions technical training in handling equipment 
purchased with federal grants. This training is available upon the 
jurisdiction's request either through on-site visits, long-distance 
learning, or by hosting responders at training facilities around the 
country.
   the national domestic preparedness consortium specialized training
    The National Domestic Preparedness Consortium (NDPC) is a key 
element of the federal domestic preparedness initiative. NDPC is 
providing the nation's first responders with specialized training 
specifically designed for responding to WMD incidents of domestic 
terrorism, filling existing training gaps, and enhancing training 
currently provided by FEMA, DoD, and other federal agencies. The 
specialized NDPC training will be delivered in three ways: on location 
at the Consortium facilities, through regional or traveling courses, 
and via distance learning technology. In fiscal year 1999, the 
Consortium will identify training needs, develop training courses, and 
deliver courses to first responders in four major areas: awareness, 
responder operations, technician responses, and WMD incident 
management.
    The Consortium incorporates the several organizations that have 
received funding under the OJP's domestic preparedness initiative into 
a single, coordinated, and integrated training program. Each of the 
five NDPC members has capabilities that make their individualized sites 
uniquely qualified to provide specialized WMD training.
    The National Energetic Materials Research and Testing Center at the 
New Mexico Institute of Mining and Technology provides live explosive 
training and field exercises.
    The National Center for Bio-Medical Research and Training at 
Louisiana State University provides expertise and training in 
biological agents and in law enforcement.
    The National Emergency and Response and Rescue Training Center at 
Texas A&M University provides the ability to conduct field exercises 
and expertise and facilities for training on urban search and rescue 
techniques, with emphasis on the fire, HAZMAT, and EMS disciplines.
    The U.S. Department of Energy's National Exercise, Test, and 
Training Center at the Nevada Test Site provides the ability to conduct 
large scale field exercises using a wide range of live agent simulants 
and explosives.
    The Office of Justice Program's Center for Domestic Preparedness at 
Fort McClellan, Alabama provides the ability to conduct training in a 
live chemical agent environment and to conduct field exercises. The 
Center was opened by OJP/OSLDPS on June 1, 1998 to train state and 
local emergency responders in both basic and advanced methods of 
responding to, and managing, incidents of domestic terrorism. Even now 
in its initial stages of operation, the Center has already trained 
nearly 1,000 first responders in basic awareness, incident command, and 
incident management.
                        senior official courses
    OSLDPS is developing an enhanced Senior Officials Course tailored 
for each recipient jurisdiction. The course builds on the existing 
Senior Official courses and is part of the transition from the Nunn-
Lugar-Domenici program. This new program dovetails with the new 
assessment process and will ultimately serve as a vehicle for 
delivering the assessment findings to city leaders. The course teaches 
baseline awareness, then walks participants through the findings of the 
jurisdictional assessment. Through this process, decision-makers fully 
understand the community's state of preparedness and the necessary 
steps to ameliorate shortfalls. OSLDPS will initiate the program with a 
special version intended for the first 25 cities that received the 
Nunn-Lugar-Domenici Domestic Preparedness Program train-the-trainer 
courses.
    All of the training courses developed under OSLDPS will undergo a 
course review and certification process by OSLDPS. Each of the 12 
courses being developed will undergo a thorough review and critique. 
Comments from the review boards will then be incorporated into the 
course and, following a final expert review, the courses will be 
certified by OSLDPS.
Equipment
    Specialized equipment ensures that responders are armed with the 
requisite tools to implement their knowledge and respond to WMD 
emergencies. The federal government has established several programs 
intended to provide first responders with the specialized equipment 
needed to effectively respond to WMD terrorist events. Such equipment--
chemical detection systems, personal protective equipment, 
decontamination showers, etc.--is largely unique to the needs of WMD 
response. The merger of the Domestic Preparedness Program ``training 
set'' equipment program with the OSLDPS grant-based equipment program 
will enhance both efforts, eliminating duplication and providing an 
opportunity to go beyond ``bare bones'' to deliver meaningful equipment 
stores.
    Our State and Local Technical Assistance and Needs Assessment 
Program will provide funding to give state and local agencies technical 
assistance. Assistance will range from calibrating and handling 
equipment to expert advice and information on a variety of WMD threats 
through phone hotlines and the Internet. Technical assistance is a 
constant throughout the preparedness spectrum and is available to all 
responders on a continual basis.
Office for State and Local Domestic Preparedness Support Grant 
        Equipment Program
    The Office for State and Local Domestic Preparedness Support has 
two levels of grant equipment programs that aim to cover more of the 
country, enhancing programs in cities that have already received Nunn-
Lugar-Domenici Training and Equipment, reaching out to the counties and 
states, and providing funds for cities and states not currently 
receiving grants from other programs.
    The fiscal year 1999 County and Municipal Agency Domestic 
Preparedness Equipment Support Program continues the equipment grants 
that were started in the 120 largest jurisdictions in fiscal year 1998 
through the State and Local Domestic Preparedness Equipment Support 
Program, as I described earlier in my testimony. Fifty-nine cities in 
the group of 157 have already undergone training as part of the 
Domestic Preparedness Program (Nunn-Lugar-Domenici). These cities will 
receive additional awards for equipment and procurement purposes, 
allowing them to build on their advanced level of training and improve 
coordination with their neighboring municipalities. The funding will 
also allow states receiving FEMA grant funding for Terrorism 
Consequence Management Planning to enhance their operational planning.
    The state program of the OSLDPS equipment grant provides a 
mechanism to address concerns expressed that federal resources need to 
be targeted to smaller jurisdictions. The states are able to distribute 
the grants funds, at their own discretion, to enhance the capabilities 
of smaller jurisdictions on a suburban and rural scale. Every state 
capital is also included in either the County and Municipal program or 
the Fire and Emergency Medical Services program. There is also no 
overlap between the grantees of the two OSLDPS programs to ensure 
maximum coverage with the funds available.
    The Justice Department's fiscal year 1999 appropriation allotted 
funding to increase the Municipal Fire and Emergency Service 
Departments' Equipment and Training program. This grant will provide 
funds for equipment for municipal fire and emergency medical 
departments, as well as providing interoperable radio equipment for 
local emergency response agencies. Grants will also be distributed to 
the 55 remaining cities that will be receiving Domestic Preparedness 
Program Training, but are not eligible for equipment funding through 
the First Responder Equipment Acquisition Program. Jurisdictions and 
states that have not currently received any Domestic Preparedness 
Program funding or training will also receive funds as part of this 
grant. Awards will be given to state capitals that are not eligible for 
First Responder Equipment Acquisition Program Funds and are not part of 
the remaining 55 cities to be trained, and the largest cities and the 
state capitals in the 12 states that were not included in the original 
120 cities of the Domestic Preparedness Program.
Exercises
    Exercises are critical to developing and refining first responder 
abilities to deal with WMD incidents. Exercises provide an opportunity 
for responders to move from theoretical learning to the practical 
application of training. Tabletop exercises allow responders to 
integrate response elements and begin to grasp the interplay of various 
disciplines. Drills or functional exercises provide a hands-on 
opportunity to utilize key equipment and run though the motions of a 
response in a low-stress environment. Enhanced functional exercises 
offered through the Consortium also provide the chance to practice 
responses in a hazardous environment. Issues central to the exercise 
include the development of confidence in local abilities to identify 
and manage the consequences of a terrorist attack during the early 
stages of the event, as well as the integration of local, state, and 
federal resources in a larger scale response, which might involve the 
use of pre-deployed assets or one that occurs over a longer period of 
time.
  office for state and local domestic preparedness exercise initiative
    Congress has directed the Office of Justice Programs to conduct two 
types of exercises. A major ``Topoff'' exercise will be carried out at 
the national level later this year, which will involve senior federal 
officials and response assets responsible for consequence management of 
terrorist attacks. This exercise will be a ``no notice'' event, 
intended to stress the federal system's ability to effectively carry 
out its responsibilities. On the state and local level, OSLDPS intends 
to support local exercise initiatives with funding and technical 
assistance. The objective is to support non-Nunn-Lugar-Domenici 
jurisdictions that have received OSLDPS training and support, and 
responders will also be eligible to attend exercise-based training 
courses.
Summary
    The evolving federal program for WMD terrorism preparedness is 
built on an interlocking foundation of assessment, training, equipment, 
and exercises. Each part is integral to a logically defined process, 
every element contributing to the whole. The OSLDPS program, as it 
gathers momentum and prepares to integrate the existing Nunn-Lugar-
Domenici Domestic Preparedness Program activities, will provide 
targeted support, including technical assistance, to more than 300 
cities, counties, and states across the nation. Through its awareness 
programs, thousands of police and fire personnel will be trained 
through direct deliver and train-the-trainer programs. This broadened 
reach will dramatically improve the level of sophistication and the 
functional readiness of the fire, law enforcement, and medical first 
responder communities nationwide.
    As the early efforts have matured, the needs of the first responder 
communities have become increasingly better understood by those 
responsible for providing support at the national level. However, there 
are currently only two training programs working on a national level in 
the United States and after the transition on October 1, 2000, there 
will only be one--the program run by the Department of Justice.
    OJP/OSLDPS, which is responsible for enhancing state and local 
capabilities, is preparing to enter a period of focused, sustained 
improvement of this nation's capability to deal with events that we 
hope will never occur.
    I will be happy to answer any questions you may have. Thank you.

    Senator Sessions. Thank you. Well, let me ask you this now. 
I know that everybody is going to say you are getting along and 
making progress; we are all working together. But let's go a 
little deeper than that. Are you satisfied now that you are 
moving toward a coordinated program in which the various 
departments--such as the Department of Energy, the Department 
of Justice, and the Department of Defense--are working together 
effectively to achieve a unified plan with one-stop shopping, 
and what can we do to help you if you need any further help?
    Mr. Mitchell. I believe, Senator, that we are approaching 
that point where we are establishing relationships and being 
much more forthcoming in our negotiations and interactions with 
the other Federal agencies. The NDPO can provide some of the 
critical coordinating aspects that are required to pull that 
kind of an integrated Federal program together.
    As I said, I am extremely confident that the transition of 
the Nunn-Lugar program to the Office of Justice Programs will 
provide for the first time a very truly comprehensive training 
program at one spot. It will be much easier to coordinate 
through one agency, and with the support of the other Federal 
agencies--the Public Health Service, the Department of Energy. 
They have critical resources and training to provide to this 
mission as well, and we see that ability to integrate all those 
programs as coming together much better than I think it has in 
the past.
    Senator Sessions. Well, the various agencies have various 
things they can contribute, and how you bring it together, I 
think, is important. I believe the President has got to give 
Dick Clarke and all of you the sufficient authority to meet 
your responsibilities. Are you satisfied that there is 
sufficient authority to command coordination among the various 
departments and agencies of the Government?
    Mr. Mitchell. Senator Sessions, I think there is. I think 
there are some areas where we need to do better, but I think I 
have seen over the last several months a willingness to put 
individual and sometimes parochial interests aside and try to 
come together for the benefit of the Nation's first responders. 
So I think we have the organizational structure there that will 
allow us to do that on a much more effective basis.
    Senator Sessions. Well, it is the nature of the beast, and 
we ought not to be ashamed to admit it, that we are going to 
have parochial interests and people are going to be quite 
sincere. But in the overall picture, they may not be correct, 
and somebody has got to make a decision to bring it all 
together.
    Dr. Hughes, let me ask you, considering the long incubation 
period of some diseases, what do you think is the most 
immediately needed things to help our medical technicians at 
the local level be ready for a potential biological threat?
    Dr. Hughes. Well, I think there are several things that 
need to be done, and we are beginning to make some progress 
here. They are the same sorts of things that need to be done to 
position the Nation to deal with problems of emerging and 
reemerging infectious diseases, generally.
    Senator Sessions. You think there would be a substantial 
overlap, in other words, between just identifying a normal 
outbreak, a natural outbreak?
    Dr. Hughes. Absolutely, absolutely. It is important to 
recognize that a biological event will present rather 
differently than an explosion or an exposure to a chemical 
agent because of this incubation period that has been 
mentioned. People may be dispersed when they become ill. 
Therefore, it requires that health care professionals be alert 
to the fact that a patient that they are seeing with an 
unexplained illness might, in fact, be part of a terrorism 
episode.
    Of course, they might also be part of a naturally-occurring 
epidemic as well, and a number of the recently recognized 
outbreaks in this country have been detected first by an alert 
physician. That was true very dramatically for the episode of 
what we now call hantavirus pulmonary syndrome that you may 
remember was recognized on the Navajo Indian reservation back 
in 1993. It was an alert physician and an alert State medical 
examiner who recognized that they were dealing with an 
unexplained illness.
    So we must first increase awareness, improve disease 
surveillance, provide the types of laboratory diagnostic tests 
that are necessary to rapidly recognize infectious diseases. 
One of the problems with some of the leading bioterrorism 
candidate agents, of course, is they are not currently 
important public health problems in this country. The level of 
physician awareness of the illnesses is very low. The level of 
awareness of microbiologists working in clinical or public 
health laboratories is very well.
    There are not significant active research programs going on 
for these agents, so we don't have the diagnostic tests that we 
need, and in some cases we don't have the range of therapeutic 
strategies that we need. We also need to be sure that people 
are familiar with how to report these episodes when they occur, 
and that local and State health departments are positioned to 
be able to rapidly respond and call on assistance from the 
Federal Government as needed.
    One last comment is just the importance of this planning 
and the need to be sure that law enforcement and public health 
and emergency responders and infection control practitioners, 
groups that historically have not always worked closely 
together--because they all will have critically important roles 
to play in a bioterrorism event, they all need to be at the 
table in this planning, as has been emphasized.
    Senator Sessions. The CDC then, as you see it, would play a 
primary role in this effort in educating the physicians and 
medical personnel?
    Dr. Hughes. Yes. That is one of the things that we see as 
important responsibilities for us. We are going to start with 
helping local and State public health personnel strengthen 
their surveillance capacity, improve their laboratory capacity, 
strengthen their communication capacity so that information can 
move rapidly among local jurisdictions to States and at the 
national level. And then the need for training is a recurrent 
theme, absolutely.
    Senator Sessions. Well, it strikes me as part of the whole 
picture you would want to move from sensitizing physicians and 
medical personnel, to diagnosis, to also immediately help our 
other first responders, whoever it is that may be dealing with 
these people, to also not be infected themselves and to move 
rapidly on that. I think it just takes a unified effort.
    Senator Kyl.
    Senator Kyl. Thank you, Mr. Chairman.
    Just following up with the comment you made earlier, Dr. 
Hughes, what are the CDC's plans for researching and developing 
anti-viral drugs against smallpox or new smallpox vaccine?
    Dr. Hughes. Well, in the President's budget for 2000, there 
is a request for resources for NIH, who, in the Department of 
Health and Human Services, as you know, would be the lead for 
this type of research. Obviously, the pharmaceutical industry 
is a very important partner in this as well.
    We do have a responsibility at CDC for maintaining the 
smallpox virus, and are involved with the stockpile issues as 
they relate to smallpox vaccine. The Department of Defense has 
really been the lead group in the recent past in terms of 
conducting research looking for anti-viral agents that might be 
effective against smallpox virus and they have made some 
progress. But this Institute of Medicine report identified very 
clearly the high-priority need to develop an improved smallpox 
vaccine and an improved anthrax vaccine.
    Senator Kyl. That was the reason for my question. I mean, I 
am aware of that and I just wondered, does CDC have plans for 
doing something itself or are you relying on DOD? In other 
words, I am curious to know whether or not we are going to have 
an effective anti-viral because of the difficulty of some 
people who can't be vaccinated with current smallpox vaccines 
and whether we will have sufficient new smallpox vaccine.
    Dr. Hughes. Well, it is an excellent question and it 
illustrates one of the many challenges in this arena. You know, 
you can't develop a new smallpox vaccine overnight, and we are 
going to need collaborative Federal efforts and we are going to 
ultimately need to engage the pharmaceutical industry in 
dealing with this challenge as well. Now, NIH will be in a 
position, if the resources come to them, to support some of the 
relevant research in these areas as well.
    Senator Kyl. I guess what I am hearing is we are going to 
work on it.
    Dr. Hughes. Well, these things take time, Senator. You 
can't do this stuff overnight.
    Senator Kyl. I understand it takes money, it takes time, it 
takes very talented people. And maybe we shouldn't be talking 
in an unclassified environment about what we don't have, but I 
guess I will just summarize it this way. This is one of our 
significant needs that currently is unmet. Would that be a fair 
statement?
    Dr. Hughes. That would be a fair statement, yes, 
absolutely.
    Senator Kyl. And anything that you become aware of that is 
needed from the Congress, you will tell us, right?
    Senator Sessions. Dr. Hughes, do you consider yourself the 
one that ought to make that request or are you looking to 
someone else to bear the responsibility of deciding whether we 
need more vaccine? That is one of the things we are trying to--
who is going to make the call?
    Dr. Hughes. The request ultimately comes from the 
administration, of course. We maintain the stockpile of 
smallpox vaccine, for example. Now, there are significant 
problems there, and the committee should be aware there is not 
a lot of smallpox vaccine itself. There is even less diluent 
that is needed to dilute the vaccine that exists. There is a 
shortage of bifurcated needles, the needles that are needed to 
administer the vaccine, should that need arise.
    And then last but not least, there is a relative shortage 
of vaccinia immunoglobulin which you need to have because of 
the anticipation that there will be some adverse reactions 
associated with a large smallpox immunization program. So it is 
quite complicated. There are shortages in each----
    Senator Sessions. I guess my only question is that since we 
don't know everything that is going on in the world, can we 
look to you to call on us for help if you need it or are we 
looking to some other agency to make that request?
    Dr. Hughes. Well, we can let you know in terms of the 
stockpile issues for which we do have lead responsibility, 
absolutely.
    Senator Sessions. I am sorry, Jon. I interrupted you.
    Senator Kyl. No, that is all right, Senator Sessions.
    Senator Helms and I sent a letter to the President last 
month in which we discussed this problem. There was a 
suggestion that the U.S. smallpox cultures would be destroyed, 
and I wrote this letter suggesting that the administration, in 
deciding the fate of the remaining smallpox virus cultures held 
at CDC, should recognize the needs that we would have. I 
expressed the view that we believe even more strongly that 
destruction of the U.S. smallpox cultures would undermine U.S. 
national security and would serve no public health purpose 
whatsoever.
    First of all, were you aware of this letter?
    Dr. Hughes. I am not aware of the letter, no, sir.
    Senator Kyl. What can you tell us about the status of the 
administration's decision with respect to the smallpox virus 
cultures at CDC?
    Dr. Hughes. Only that there are ongoing discussions at the 
highest levels of the administration about this very issue.
    Senator Kyl. Are you involved in those?
    Dr. Hughes. No, I am not personally involved in those.
    Senator Kyl. Is somebody else at CDC involved?
    Dr. Hughes. We have been involved in discussions within the 
Department of Health and Human Services, but not above that, to 
my knowledge, directly in the recent past.
    Senator Kyl. Well, this is a very serious matter and it 
doesn't sound to me like you are directly aware of either the 
President's decision here or the status of the creation of new 
stocks. And I think we need to find out the answers to those 
questions. Maybe I can submit them to you and you can help us 
get them to the right people.
    Dr. Hughes. We would be happy to respond to the record. 
Certainly, the pros and cons in terms of the destruction of the 
smallpox virus stocks have been discussed. That is one issue. 
Now, the smallpox vaccine--some people don't realize that the 
smallpox vaccine is not smallpox virus. It is a different 
virus, and so there are two separate issues.
    Senator Kyl. Before my time is gone, Mr. Mitchell, when you 
conduct the assessments mentioned on page 4 of your statement, 
do you anticipate adding or dropping cities to the training 
program?
    Mr. Mitchell. Well, I think that will help guide us in 
making that determination. We are committed to completing the 
initial 120-city target for Nunn-Lugar. We fully intend and we 
expect to add additional cities to that, and to address some of 
the other issues that have been raised with the approach there 
to address the needs in some 12 States that are outside the 
current 120-city listing to try to make the program more 
nationally-based.
    Senator Kyl. Do you anticipate that the Department will be 
able to incorporate intelligence estimates into the decision 
about selecting sites, or will you stick with the original DOD 
sites?
    Mr. Mitchell. Well, I think we are going to stick with the 
original 120 DOD sites, based on population, and also some of 
the other jurisdictions that we have been directed in Congress 
to provide grants to, the 157 largest cities and counties. We 
see a need to link the training with the jurisdictions that are 
receiving Federal resources for specialized equipment, and 
these are the largest jurisdictions with the paid professional 
fire services and they are ideally suited for this type of 
training.
    There does need to be a range of training. To be honest 
with you, Senator, there is no one training model that is going 
to meet all of the training needs of the various-sized 
jurisdictions. So, that is one of the areas we are going to 
have to examine and see how the program can be shaped to 
address that.
    Senator Kyl. One of the things I have in mind is the GAO 
report. One of the issues that they reported on had to do with 
the identification of the cities. The report said, and I am 
quoting now.

    DOD did no analysis to determine whether all cities on the 
list actually has a perceptible level of threat and risk of 
terrorism or whether a small city with high risks factors might 
have been excluded from the program due to its lower 
population.

    I guess I was suggesting that instead of just taking a list 
that was prepared that you might take the GAO recommendation to 
heart and consider whether there might be some exceptions to 
the rule that would alter your listing.
    Mr. Mitchell. We are certainly willing to consider that.
    Senator Kyl. There is a lot more we can get into here, but 
I am not going to have time and I am going to have to leave at 
3:00 p.m. Oh, I was supposed to leave at 3:00 p.m. Now, I am 
really late--so thank you very much for the panel.
    Senator Sessions. Thank you for your leadership and 
contribution on this panel.
    Mr. Cragin, let me ask a little bit about the National 
Guard.
    Mr. Cragin. Yes, sir.
    Senator Sessions. The National Guard is a tremendous 
resource and has some very talented people within it, and they 
are in virtually every community in America, and Army Reserve 
units, too. What role do you view that they would have in this 
effort?
    Mr. Cragin. Mr. Chairman, as I know you recall from Dr. 
Hamre's testimony before the Senate Armed Services Committee, 
he made the observation that as far as the Department of 
Defense is concerned, the National Guard and the reserve 
components are forward-deployed in America. We think that they 
collectively are going to play a major role in providing 
military support to civil authorities.
    And as Dr. Hamre mentioned during his testimony, we sought 
congressional authority in the fiscal year 1999 Defense 
Authorization Act to establish 10 rapid assessment and initial 
detection teams, one in each of the 10 FEMA Federal regions, 
composed of 22 full-time National Guard personnel that would be 
available within their area of responsibility to assist the 
first responders in initial detection activities.
    Additionally, as part of that reserve component integration 
program, we will be training about 170 decontamination and 
reconnaissance units, primarily from the Army Reserve which has 
about 60 percent of the Army's total capability in that arena.
    Senator Sessions. Are they already in existence?
    Mr. Cragin. They are identified. The training doctrine----
    Senator Sessions. Are we redesignating certain units or 
will they just be given extra training?
    Mr. Cragin. They are primarily going to be given extra 
training. They essentially have the core competencies, they 
understand the skill set. But this is to deal in an urban 
environment, in communities working with first responders, and 
the money has been appropriated in fiscal year 1999 to do that. 
We will also, as we move forward, be engaging a number of our 
medical resources in the Guard and Reserve.
    With respect to the RAID teams themselves, it was 
determined that the National Guard was really the best place to 
embed these units because, as you know, they wear two hats, a 
State hat and a Federal hat. Therefore, the governors could 
effectuate their deployment without having to go through the 
Federal hoops.
    Congress last year in the supplemental appropriation also 
directed us to establish in the 44 States and territories that 
didn't get an allocation of one of the RAID elements--to 
establish what we called RAID lights, which utilize drilling 
National Guard personnel to develop a modicum of planning and 
assessment capability in each of these jurisdictions. We have 
requested in the President's budget for 2000 authority for an 
additional five RAID teams to be fielded that year, and I know 
that the Senate Armed Services Committee staff has been working 
with us comprehensively on answering that question.
    Senator Sessions. It is a tremendous resource and, properly 
utilized, I think could contribute to the overall effort.
    Ms. Martinez, the one-stop shopping is a good endeavor. 
That is a great goal, and I applaud the Attorney General and 
all of you that have been working on that. I guess my question 
as part of this oversight is how close do you think we are to 
achieving that? What else needs to be done, and can we do 
anything to help?
    Ms. Martinez. Well, I think, Mr. Chairman, that right now 
we do have a voluntary cooperation by all of the Federal 
agencies I named, and largely it is the agencies that have been 
involved from the very beginning of Nunn-Lugar and its rollout, 
to include now OJP and the National Guard, soon to be Coast 
Guard and the NRC, as well as the Office of Victims of Crime.
    As I mentioned, at the present time everyone is corralled 
around the need, as cited by the stakeholders, to work this 
together. I believe that everybody is in it for the right 
reason, and there is a tremendous spirit of cooperation in 
terms of we do know what it is meant to be.I was in Oklahoma 
City yesterday, on the anniversary. I know that there are a number of 
people on the front lines in State and local levels that will make this 
work.
    I think many of the bugs that will be worked out in the 
Federal Government will be by the participation of State and 
local authorities in the office, and that is why we have 
allowed about a third of the office to be State and locals 
themselves, to allow them to remind us on a daily basis, to 
guide our programs. And I really don't think we can look at 
them and say no. So at the present time, it is just the Federal 
skeleton, if you will, and I really look forward to the day 
when we are fully staffed and operational in Crystal City.
    Senator Sessions. Well, I hope that does proceed apace. Are 
you taking steps, or would it be Mr. Mitchell's effort to 
ensure that we have appropriate training standards for people 
to go through training, that they learn A, B, C and D, the 
essential things needed for first responders?
    Ms. Martinez. Yes, Mr. Chairman. The National Domestic 
Preparedness Office at this point has formed a working group to 
develop a set of national standards for training. We have put 
together a standardized equipment list so that everyone can 
basically work off an interoperable basis.
    The training standards will recognize National Fire 
Protection Agency standards, as well as those that are being 
developed by the American College of Emergency Physicians in 
the health care area. So we are happy to say that the first 
responders have been very good in guiding us in developing that 
national standard.
    Senator Sessions. Well, I think there is an intensity of 
need to get this done. I know it has been talked about for some 
time, but I would encourage you to speed it up. Is there 
anything we can do to help you speed it up that you know of? 
You think you are making progress?
    Ms. Martinez. Well, at the present time, sir, of course, we 
are only proposed and we are looking forward to the day when we 
are actually cut loose and named as an office. We have done a 
great deal, like I say, on a voluntary basis so far and we have 
really been the horse that is champing at the bit. We haven't 
been able to get out on the course, if you will, so we are 
looking forward to that day.
    Senator Sessions. Mr. Mitchell, do you have any comment on 
that?
    Mr. Mitchell. I think Barbara has pretty succinctly 
described it. We are taking our guidance on that from the first 
response community. We are not interested in developing new 
standards or Federal standards outside the standards they are 
currently under, the existing NFPA standards that are fully 
accepted and utilized at the local level. We will ensure that 
all training, at a minimum, meets those existing standards.
    Senator Sessions. On the question of equipment, has there 
been some consensus reached as to what is essential equipment, 
what items of equipment are essential for any effective first 
responder, and what kind of training is necessary for that? Do 
any one of you want to comment on that?
    Ms. Martinez. I would like to comment, Mr. Chairman. If I 
can say, actually even before NDPO was begun, the HAZMAT 
commanders across the country, about four of them that I could 
actually name, saw the need to standardize their equipment. And 
we have recently built upon that, asked them to come forward 
and identify what is different in the way of terrorism. This 
was the beginning of the standardized equipment list.
    We have since gone beyond the HAZMAT arena and asked the 
medical personnel, through the Department of Health and Human 
Services, to provide what they thought was necessary for the 
first responder or the emergency responder, not in the hospital 
system, but on the scene in immediate response to a terrorist 
incident involving a chemical or biological or nuclear or 
radiological material.
    So we have gone to the various places. Of course, law 
enforcement has basically come up with the technology necessary 
to render safe in a remote capacity; that would be an explosive 
device. In this case, chemical-biological-nuclear has given 
them a new twist as well.
    It is very exciting what is happening right now. By virtual 
office, many first responders are working in about six 
different program areas in this equipment list that they can 
develop for us and suggest to us the items of equipment that 
ought to be on the standardized equipment list. We, in turn, 
February 1, I believe, turned that over to OJP for inclusion in 
the grant program so that the moneys that are spent for first 
responders are on the items that are standardized.
    Senator Sessions. Well, you just don't want, I think, every 
city or county or metropolitan area having to reinvent the 
wheel and determine what equipment or what clothing is 
available. I think that it would be a good role for the Federal 
Government to have a good handle on that, to give them good 
options.
    Maybe some cities would need something slightly different 
than another one because of location or otherwise. But I really 
believe that that is an important role for the Federal 
Government to keep every city and county from just receiving a 
grant and going out and trying to buy equipment. Do you agree 
with that?
    Ms. Martinez. Absolutely, sir, and that list is available 
if you would like to see it. Eventually, what we would like to 
do is make that into almost a Consumer Reports. The DOD would 
provide us testing data of different protective, detection, 
DCON and communications gear; that DOD will basically test 
protective equipment against different agents under different 
conditions. And we would like to be able to publish that.
    Senator Sessions. Just to follow up on that, will there be 
required a plan, a city plan, disaster crisis plan to be 
prepared and submitted for approval as part of this process?
    Ms. Martinez. This is already in the infancy stages. Right 
now, of course, the weapons of mass destruction in the FBI 
field offices have the contingency plan, and we are unveiling 
the Federal contingency plan so that local jurisdictions can 
know what to expect from the Federal Government. In addition, 
the OJP grant application kit does ask them to provide some 
planning in advance of them actually receiving the grants.
    We went through this--the first year was last year, and I 
helped Frank LePage basically write the application kit. So the 
two of us are very familiar with that and we have asked them to 
provide a great deal of background detail and planning before 
they can actually qualify.
    Senator Sessions. I think ultimately every city ought to 
have a plan that meets their own individual needs. What happens 
if the water system is attacked, what happens if the port is 
vulnerable, or various different threats that would be unique 
to that city. I hope we can reach that level. If we are not, I 
don't think we are at the level we need to be.
    Does anybody else want to comment on that briefly? We have 
got another panel to go to.
    [No response.]
    Senator Sessions. Dr. Hughes, what about equipment for 
medical personnel, any special needs that you feel may be 
important for us to consider there?
    Dr. Hughes. Well, this standardization issue generally is 
an important one from our perspective as well. One of the 
things that we are doing is working with the hospital infection 
control community as another group that is clearly an important 
partner, particularly in a biological terrorist incident, 
because there are issues related to isolation precautions and 
appropriate protective equipment in that setting.
    I might say, though, in terms of standardization, it is an 
issue for clinical and public health laboratories, also, in 
terms of what level of expertise should these laboratories 
have, what sorts of diagnostic capacity. It is also a big issue 
in the information system arena, which is a very important 
piece of all this, and an area in which we are trying this year 
in this RFA that I mentioned to improve State and local public 
health communication capacity and urge them to conform to some 
standards that will give us for the first time a national 
integrated infectious disease surveillance system. That is the 
direction that we are trying to head in.
    Senator Sessions. So to advise you, we will be open for 
follow-up questions for 1 week. The record will be open until 
tomorrow if you have any submissions you would like to make for 
that. And then if you do receive questions, we would ask you if 
you would respond within 1 week. We would be most appreciative.
    Thank you very much. You have made some excellent points, 
and I hope that things are going along well and we hope that we 
can help.
    Will our next panel step forward? Our first panelist is 
Chief Richard Dyer. He has been in the fire service for 32 
years, and Chief of the Fire Department in Lee's Summit, MO, 
since 1987. He served on the board of directors of the 
International Association of Fire Chiefs since 1991 and was 
elected president of the Association in 1998. We appreciate 
Chief Dyer coming to Washington.
    Sheriff Pat Sullivan, of Arapahoe County, CO, a suburb 
outside of Denver. I suppose that is your neighborhood that had 
the shooting. Is that right?
    Mr. Sullivan. Yes, Mr. Chairman. I will brief you on that 
when it comes my turn.
    Senator Sessions. Thank you. We are certainly interested.
    You are a member of the board of directors of the National 
Sheriffs' Association and serve as chairman of the National 
Sheriffs' Association's Subcommittee on Domestic Preparedness 
and Domestic Terrorism. Sheriff Sullivan was recently appointed 
to the Advisory Committee of the National Domestic Preparedness 
Office by Attorney General Janet Reno.
    Sheriff Ted Sexton, from Alabama, pointed out to me that 
the sheriffs had not been sufficiently inculcated or brought 
into this process. I thought that was a good comment and I hope 
progress is being made.
    Mr. Sullivan. Yes, Mr. Chairman, just a correction on that. 
I have met several times with the FBI on forming the National 
Domestic Preparedness Office. They have not actually formally 
appointed an advisory board yet.
    Senator Sessions. I see.
    Mr. Sullivan. And the National Sheriffs' Association has a 
subcommittee on terrorism, and Sheriff Sexton is my vice 
chairman on that committee.
    Senator Sessions. Well, he is a capable person, as you well 
know, and very articulate----
    Mr. Sullivan. Very good.
    Senator Sessions [continuing]. And has testified before 
this Congress before.
    Dr. Richard Alcorta has been practicing emergency medicine 
at Suburban Hospital's Shock Trauma Center since 1987. He 
served as Maryland State EMS Director, and in 1995 was 
appointed the State EMS Medical Director at the Maryland 
Institute for Emergency Medical Services Systems. Dr. Alcorta 
recently testified before the Senate Committee on Health, 
Education, Labor, and Pensions on the threat of terrorism. We 
look forward to your testimony today.
    We had one of the most striking bits of testimony before 
the Environment Committee from a Dr. Grande, from Pittsburgh. I 
don't know if you know him. He is an emergency medical 
practitioner. He said, well, you are spending billions of 
dollars on these air standards. He said, if you give me $100 
million in emergency medical care and I will guarantee you that 
I will save lives. I am not sure you will do that on the 
billions you are spending on some of these clean air--anyway, 
it is an area, emergency and shock trauma, where you have to 
make decisions of life and death instantly. Good decisions, 
prompt treatment, the right actions can really save people.
    Dr. Joseph Waeckerle is Chairman of the Department of 
Emergency Medicine at Baptist Medical Center and Menorah 
Medical Center, and clinical professor at the University of 
Missouri, Kansas City, School of Medicine. His involvement in 
emergency medicine dates back to the 1970's when he served as 
Director of EMS in Kansas City, MO. He has instructed 
physicians and pre-hospital personnel in preparation for mass-
casualty events, including the Atlanta Olympic Games. He is the 
editor-in-chief of the Annals of Emergency Medicine.
    Chief Dyer, we are glad to hear your comments.

 PANEL CONSISTING OF RICHARD DYER, FIRE CHIEF OF LEE'S SUMMIT, 
MO, AND PRESIDENT, NATIONAL ASSOCIATION OF FIRE CHIEFS; PATRICK 
J. SULLIVAN, JR., SHERIFF OF ARAPAHOE COUNTY, CO, AND CHAIRMAN, 
 SUBCOMMITTEE ON DOMESTIC PREPAREDNESS AND DOMESTIC TERRORISM, 
 NATIONAL SHERIFFS' ASSOCIATION; AND RICHARD L. ALCORTA, STATE 
EMERGENCY MEDICAL SERVICES DIRECTOR FOR THE MARYLAND INSTITUTE 
   FOR EMERGENCY MEDICAL SERVICES SYSTEMS, ON BEHALF OF THE 
   COLLEGE OF EMERGENCY PHYSICIANS, AND JOSEPH F. WAECKERLE, 
CHAIRMAN, WEAPONS OF MASS DESTRUCTION TASK FORCE SUBCOMMITTEE, 
            AMERICAN COLLEGE OF EMERGENCY PHYSICIANS

                   STATEMENT OF RICHARD DYER

    Mr. Dyer. Good afternoon, Mr. Chairman. The issue of 
domestic terrorism is one in which America's fire departments 
have a vital interest. Violence perpetuated against our 
citizens for political purposes, national, international or 
otherwise, will be suffered locally.
    As the primary provider of emergency life safety services, 
fire department personnel will be the first on the scene of any 
act of terrorism, saving lives and mitigating damage. This was 
true at the 1993 World Trade Center bombing in New York City 
and at the bombing of the Federal building in Oklahoma City in 
1995. It has been so at countless incidents less notorious. 
Thus, it will be so in the future.
    The Nunn-Lugar amendment to the 1996 Defense authorization 
and the Antiterrorism and Effective Death Penalty Act of 1996 
began Federal efforts to help better prepare local fire, 
emergency medical and police agencies for the possibility of 
terrorism involving chemical, biological, radiological and 
conventional weapons.
    The Antiterrorism Act authorized a $5 million appropriation 
to train metropolitan firefighters in terrorism response. The 
Office of Justice Programs provided four jurisdictions with 
demonstration grants and, importantly, worked with the National 
Fire Academy in the development of awareness level training 
programs that have been available nationwide for 2 years. A 
train-the-trainer approach was used as both a cost savings and 
as an efficient way to reach as many first responders as 
possible.
    In the spring of last year, the IFC, working in cooperation 
with the OJP, produced a conference that brought fire and law 
enforcement chiefs from the Nation's 120 metropolitan areas 
together to discuss the domestic terrorism issue and to conduct 
a consensus needs assessment in preparing for an incident. 
Training and equipment were identified as the top priorities by 
these professionals.
    With the chairman's permission, I would like to enter this 
report on the 1998 National Conference on Strengthening the 
Public Safety Response to Terrorism into the official hearing 
record.
    Chemical, biological and radiological weapons pose unique 
challenges for firefighters. Emergency personnel, improperly 
prepared, will themselves become victims. The lives of the 
initial survivors of an attack depend upon immediate rescue and 
emergency medical care from the local emergency response 
community. These men and women must be equipped to operate 
safely in a contaminated environment if lives are to be saved.
    Discretionary funds for counterterrorism initiatives 
provided by the conference report accompanying fiscal year 1998 
appropriations for the Departments of Commerce, Justice and 
State were targeted by the Attorney General for these equipment 
issues. The OJP distributed $12 million to 41 jurisdictions 
across the country to begin addressing these urgent equipment 
needs.
    At the same time, OJP created, at the direction of 
Congress, a National Domestic Preparedness Consortium. Training 
programs and facilities offered by the consortium have been 
well received by chief fire officers with both hazardous 
materials and training expertise. The IAFC strongly supports 
expedited access to the consortium's facilities for as many 
local emergency services personnel as possible.
    The IAFC believes that the enhancement of existing local 
capability is the wisest, most cost-effective course to follow 
in preparing for weapons of mass destruction terrorism. It is 
nearly certain that we will be the first responders on the 
scene, and we will be the largest supplier of personnel and 
equipment throughout the incident.
    Fire department hazardous materials response teams deal 
with spills and accidental releases of highly toxic chemicals 
on a regular basis. This is the case throughout America. 
Additional training in safely containing chemical, biological 
and radiological agents, especially from terrorism, is a high 
priority for America's fire services.
    Senator Sessions. I would just say your people are already 
highly trained because some of those chemicals are 
extraordinarily dangerous and must be handled very carefully. 
Some, you can't put water on; some you can. And it is the kind 
of training we need to expand to terrorist issues. Would you 
agree, fundamentally?
    Mr. Dyer. Yes, sir, absolutely.
    Senator Sessions. I mean, I think most fire departments 
have extraordinarily skilled people in these areas, and you are 
right to believe that they are a resource and, with a little 
extra training, could be our best contributors to weapons of 
mass destruction incidents.
    Mr. Dyer. That is exactly our position, Senator.
    Senator Sessions. Thank you. I am sorry to interrupt there.
    Mr. Dyer. No problem. As long as we are agreeing, continue 
to interrupt. [Laughter.]
    The lack of training standards in both the Defense and 
Justice programs is of concern to some. Others proclaim that no 
standards exist. The IAFC disagrees. Consensus standards 
developed and promulgated by the National Fire Protection 
Association are the standards that should be adopted by all 
agencies involved in training local fire departments. Funding 
for additional equipment, training and exercises was provided 
in last year's Appropriations Act. Congressional conference 
report language accompanying the law is consistent with the 
needs assessment report that was created at the OJP-IAFC 
terrorism conference.
    I turn now to the coordination of terrorism programs and to 
the operational coordination of Federal agencies in response to 
an actual incident. With multiple Federal agencies currently 
involved in training and support programs, there is clearly a 
need for program coordination. The Attorney General has created 
a National Domestic Preparedness Office to serve as a contact 
point for localagencies and to facilitate coordination of 
planning, training and operations programs.
    We are eager to work with the NDPO in an attempt to clarify 
the Federal response mechanism. Numerous Federal agencies have 
response capabilities, but it is currently unclear on how these 
units will be activated and coordinated during a crisis. We 
feel that the State and local advisory panel of the NDPO is 
going to be critical in order to address a coordinated response 
to any incident. I mentioned earlier the need for radio 
interoperability among and between all responding agencies. The 
lack of effective communications can significantly hamper the 
successful management of any incident.
    There is a final incident that should be addressed with 
respect to the successful management of an incident of domestic 
terrorism. The Incident Management System was developed decades 
ago in response to the large wild fires then occurring in 
southern California. The system is now used by the vast 
majority of America's fire departments and will be in place at 
the scene of a terrorist attack long before State and Federal 
agencies arrive.
    Senate report language accompanying supplemental fiscal 
year 1999 appropriations directed the FBI and the NDPO to act 
in a manner consistent with all hazard planning within the 
framework of the Standard Incident Management System. The IAFC 
supports this unconditionally, and applauds the Senate and the 
Congress for the adoption of this language.
    I would like to thank the Chair and the committee for 
allowing the IAFC the opportunity to be here and to share our 
views on America's preparation for terrorism.
    Senator Sessions. Thank you, Chief Dyer. Well said.
    [The prepared statement of Mr. Dyer follows:]

                   Prepared Statement of Richard Dyer

    I am Chief Richard ``Smokey'' Dyer, of the Lee's Summit, MO, Fire 
Department and President of the International Association of Fire 
Chiefs (IAFC). The issue of domestic terrorism is one in which 
America's fire departments have a vital interest. Violence perpetrated 
against our citizens for political purposes, national, international or 
otherwise, will be suffered locally. As the primary provider of 
emergency life safety services, fire fighters will be first on the 
scene of any act of terrorism, saving lives and mitigating damage. This 
was true in the minutes following the 1993 World Trade Center bombing 
and the 1995 bombing of the Alfred P. Murrah federal building in 
Oklahoma City. It has been so at countless incidents less notorious. 
Thus it will be so in the future.
    There are two distinct areas of federal counterterrorism efforts 
that should be addressed. First, programs designed to support local 
emergency services personnel who will be first on the scene and second, 
the operational role of federal agencies in the wake of an attack. I 
will address the pre-incident support role first.
    The Nunn/Lugar/Domenici amendment to the 1996 Defense Authorization 
and the Antiterrorism and Effective Death Penalty Act of 1996 began 
federal efforts to help better prepare local fire, police and emergency 
services agencies for the possibility of terrorism involving chemical, 
biological, radiological and conventional weapons. Our association was 
involved in the development of both these laws and continues to work 
with the Departments of Defense and Justice in their administration.
    The Antiterrorism Act authorized a $5 million appropriation to 
train metropolitan fire fighters in terrorism response. Designated by 
the Attorney General to administer this law, the Office of Justice 
Programs (OJP) provided four jurisdictions with demonstration grants 
and, importantly, worked with the National Fire Academy in the 
development of awareness-level training curricula that has been 
available nationwide for two years. A train-the-trainer approach was 
used as both a cost savings and an efficient way to reach as many fire 
fighters as possible. Tens of thousands have received training based on 
these materials. This awareness-level training is excellent and should 
continue to be provided.
    In the spring of last year the IAFC, working in conjunction with 
OJP, produced a conference that brought both fire and police chiefs 
from the nation's largest 120 cities to the Washington area to discuss 
the domestic terrorism issue and to conduct a consensus needs 
assessment in preparing for an incident. Training and equipment were 
identified as top priorities by these professionals. The need for 
improved coordination among federal agencies with operational, post-
incident roles was also identified. With the Chairman's permission, I 
would like to enter this report on the 1998 National Conference on 
Strengthening the Public Safety Response to Terrorism into the official 
hearing record.
    Personal protective equipment, for all local emergency personnel, 
decontamination and detection equipment were identified as top 
equipment needs. Equipment that will allow radio communications among 
and between responding agencies was also identified as a need. To this 
I shall return shortly.
    Chemical, biological and radiological weapons pose unique 
challenges for fire fighters. Emergency personnel, improperly prepared, 
will themselves fall victim to their effects. The lives of the initial 
survivors of an attack depend upon immediate care and attention from 
rescue workers. These men and women must be equipped to operate safely 
in a contaminated environment if lives are to be saved. Thus, personal 
protective equipment must be the top priority, followed by equipment 
that will facilitate decontamination of victims. Devices that can 
detect and monitor the presence of these agents are also very 
important. They can prevent mistakes that may cost lives.
    Discretionary funds for counterterrorism initiatives provided by 
the Conference Report accompanying fiscal year 1998 appropriations for 
the Departments of Commerce, Justice and State, were targeted by the 
Attorney General at these equipment issues. The OJP distributed $12 
million to 41 jurisdictions across the country to begin addressing 
these urgent equipment needs.
    At the same time OJP created, at the direction of Congress, a 
National Domestic Preparedness Consortium comprised of Louisiana State 
University, the New Mexico Institute for Mining and Manufacturing, 
Texas A&M University and the Nevada Test Site's explosive ordinance 
facilities. The Justice Department also took control of the U.S. Army's 
chemical weapons training facilities at Ft. McClellan, Alabama and 
designated this facility as the National Domestic Preparedness Center. 
Training curricula and facilities offered by the Consortium have been 
well received by chief fire officers with both hazardous materials and 
training expertise. Managers at these facilities have actively sought 
out expertise from the fire service and have shown a willingness and 
demonstrated ability to respond to constructive criticism of their 
programs. The IAFC strongly supports expedited access to the 
Consortium's facilities for as many local emergency services personnel 
as possible.
    The IAFC believes that the enhancement of existing local 
capabilities is the wisest, most cost effective course to follow in 
preparing for ``weapons of mass destruction'' terrorism. It is our 
belief that not only will we be the first responders on the scene, but 
we will be the largest supplier of personnel and equipment throughout 
the incident. Fire department hazardous materials response teams deal 
with spills and accidental releases of highly toxic chemicals on a 
regular basis. This is the case across the country. Additional training 
in safely containing chemical, biological or radiological agents is a 
high priority for the fire service.
    Training conducted by the Department of Defense pursuant to Nunn/
Lugar/Domenici seeks to do this, with varying degrees of success. This 
program has certainly improved since its inception. As the Justice 
Department assumes responsibility for this program over the next year, 
we believe now is the time to address some of its shortfalls.
    The Defense Department's program initially targeted the largest 
cities only. It is important to understand that a large incident will 
trigger mutual aid agreements that exist between fire departments 
throughout a region. Fire departments from outlying jurisdictions will 
respond in support of the local incident commander the moment they are 
called. Personnel surrounding our cities must be included in train-the-
trainer courses and in exercises wherever possible.
    The lack of training standards in both the Defense and Justice 
programs is a concern to some. Others proclaim that no standards exist. 
The IAFC disagrees. Consensus standards developed and promulgated by 
the National Fire Protection Association (NFPA) are the standards that 
should be adopted by all agencies involved in training local fire 
departments. These standards are widely accepted and are already in use 
by fire training academies across the country. The awareness-level 
training developed by OJP in conjunction with the National Fire Academy 
incorporates NFPA standards. The OJP has indicated a willingness to 
incorporate these standards into the Consortium's training programs and 
into the Nunn/Lugar program as it is merged into the Department of 
Justice. The IAFC urges all federal agencies involved in training fire 
fighters to incorporate these standards.
    Funding for additional equipment, training and exercises was 
provided in last year's Omnibus Appropriations Act. Congressional 
conference report language accompanying that law is consistent with the 
needs assessment as outlined in the report I have submitted on the OJP/
IAFC terrorism conference.
    The grant application process administered by OJP last year 
required applying jurisdictions to describe their needs based on 
current capabilities. Applications were reviewed by professionals with 
relevant expertise from local law enforcement agencies and fire 
departments, working with experts from the Department of Defense, 
Federal Bureau of Investigation, Federal Emergency Management Agency 
and the U.S. Public Health Service to ensure that equipment requests 
were consistent with current capabilities. Equipment that was deemed 
beyond the current ability of an applicant to use safely and 
effectively was deemed ineligible.
    We believe that this is an effective means of providing basic, 
personal protective equipment to fire fighters that does not require 
advanced training. We do not support the provision of sophisticated 
equipment to those who are not competent to use it safely. The OJP's 
grant process seems to have eliminated the risk that this may occur. 
Grant applications for the fiscal year 1999 equipment acquisition 
program should be similarly designed and subject to the same review 
process.
    I turn now to the coordination of these programs and to the 
operational coordination of federal agencies in response to an actual 
incident. With four federal agencies currently involved in training and 
support programs there is clearly a need for program coordination. The 
Attorney General has created a National Domestic Preparedness Office 
(NDPO) within the Federal Bureau of Investigation to serve as a contact 
point for local agencies and to facilitate coordination of planning, 
training and operational programs. The IAFC has worked with the FBI for 
several years and applauds its efforts.
    An NDPO initiative has made progress towards resolving one area of 
concern to some. Specifically, the Inter-agency Equipment Board (IAB) 
was formed to develop a standardized equipment list to be consulted by 
local agencies in the grant application process. Local, state and 
federal expertise was included in drafting this list. The IAB's work is 
ongoing and we look forward to its continued progress.
    We are eager to work with the NDPO to attempt to clarify the 
federal response mechanism. Numerous federal agencies have response 
capabilities though it is currently unclear how these units may be 
activated and coordinated in a crisis. Some of these units are: The 
FBI's Hazardous Materials Response Unit, the Marines' Chem/Bio Incident 
Response Force, the Army's Chem/Bio Rapid Response Team, the 
Environmental Protection Agency's Technical Assistance Teams, and the 
National Guard's Rapid Assessment and Initial Detection teams. We feel 
that the State and Local Advisory Panel of the NDPO is going to be 
critical in order to address a coordinated response to any incident.
    I mentioned earlier the need for radio interoperability among and 
between all responding agencies, local, state and federal. This is an 
important issue. The lack of interoperability can significantly hamper 
the successful management of an incident. America's public safety 
agencies need additional radio spectrum. Congress will have to provide 
it. An additional 2.5 to 3.0 MHz of radio spectrum will allow true 
radio interoperability. The Justice Department has identified a device 
that may serve as a partial solution and we look forward to field tests 
that will determine the device's usefulness; however, the lack of 
adequate radio frequencies is a perennial issue that can be solved 
permanently by Congress through the provision of additional radio 
spectrum to public safety agencies.
    There is a final issue that should be addressed with respect to the 
successful management of an incident of domestic terrorism. The 
Incident Management System was developed decades ago in the wake of 
large wildfires in southern California. This system is in use by the 
vast majority of America's fire departments and will be in place at the 
scene of a terrorist attack long before state or federal agencies 
arrive. Senate report language accompanying supplemental fiscal year 
1999 appropriations directs the FBI and its NDPO to act in a manner 
consistent with all-hazard planning within the framework of the 
standard Incident Management System. The IAFC supports this 
unconditionally and applauds the Senate and Congress for its adoption 
of this language.
    Thank you for providing the IAFC with the opportunity to share its 
views. I will be happy to answer any questions you may have.

    Senator Sessions. Sheriff Sullivan, bring us up to date, 
too, on the incident there in Colorado.

             STATEMENT OF PATRICK J. SULLIVAN, JR.

    Mr. Sullivan. My comments have been prepared in writing and 
submitted to the committee and I will turn through those very 
quickly and then I will give you a briefing on the incident in 
Jefferson County.
    Senator Sessions. Very good.
    Mr. Sullivan. Mr. Chairman, my name is Patrick Sullivan and 
I am the Sheriff of Arapahoe County, CO, a suburban county of 
500,000 residents just outside of Denver. I am a member of both 
the Executive Committee and the Board of Directors of the 
National Sheriffs' Association, and I serve as the chairman of 
the NSA Congressional Affairs Committee and its Subcommittee on 
Domestic Preparedness and Domestic Terrorism. My vice chair is 
Sheriff Sexton, from your State.
    Additionally, I am the law enforcement sector 
representative to the National Infrastructure Protection 
Center, operated by the FBI in conjunction with the National 
Security Council, and acts as the warning center. I have also, 
as I mentioned earlier, been in three meetings with the FBI on 
their planning for the National Domestic Preparedness Office, 
with Mr. Tom Cukor, and particularly very effectively with 
Barbara Martinez, who testified before you previously, and Mr. 
Shapiro. I am also working very closely with Mr. Mitchell on 
the Office of Justice Programs part of the program.
    I appreciate the Committee's interest in domestic 
terrorism, and I appreciate the opportunity to speak on behalf 
of elected sheriffs to you today about the very real threat of 
a domestic terrorist event and how our country needs to be 
better prepared to meet the unique challenges of an attack 
within the United States.
    Mr. Chairman, as you can see, this issue is of great 
concern to me. I take terrorism very seriously, and I have had 
some significant experience in domestic preparedness. Arapahoe 
County has hosted several major events which also happen to be 
potential terrorist targets. In August 1993, we hosted Pope 
John Paul II on his papal visit to Colorado for World Youth 
Day. The 400,000-person mass was in my jurisdiction, along with 
7,000 medical emergencies. My deputies and I had to prepare for 
any eventuality. Not only did we assist in the papal security, 
but we also experienced a very large mass-casualty event that 
has a lot of relationship to what we are discussing here today.
    As Mr. Cragin mentioned, in June 1997 Denver hosted the 
Summit of the Eight. Many of those events occurred in my 
jurisdiction as well. Again, many of the venues for the summit 
were in my jurisdiction and I had to develop comprehensive 
preparedness plans, anticipating all manner of threat. Most 
recently--in fact, just a week ago--we hosted Chinese Premier 
Zhu and his entourage. Again, we developed preparedness plans 
to meet the threat. Believe me, I can commiserate with the 
emergency planners here in Washington as they prepare for the 
monumental task of the NATO summit and anniversary event.
    Throughout our history, the United States has rarely faced 
internal threats. Nevertheless, in this age of global 
communications and transportation, America faces a new threat 
from domestic terrorism. Recent bombings in New York City, 
Oklahoma City and Atlanta have taught us that international and 
domestic terrorists can strike any target in any country. 
Terrorism is no longer just a threat for international 
travelers and workers.
    Terrorists today are no longer limited to detonating bombs 
on board airplanes. They are no longer limited to attacking 
Americans in foreign cities, and they are no longer limited to 
attacking American facilities in other countries. They have the 
means and the will to launch attacks from within the United 
States on targets in the United States. The World Trade Center 
bombing demonstrated that all too clearly.
    We are no longer only facing known international terrorist 
threats and their operations; we are beginning to be faced with 
unknown sources from within. Sheriffs recognize that these 
threats are from militias, hate groups and others disenchanted 
with our Government who are willing to communicate their 
message through violence. As demonstrated with the tragic 
Oklahoma City bombing, the terrorist was one of our own, an 
American. That is a new challenge and one that needs to be 
taken seriously.
    While others may be reluctant to say so, I will tell you 
that America is not ready to meet this challenge because we as 
a Nation do not have the experience like other people living in 
the Middle East or in Northern Ireland or in other troubled 
locales. Americans live carefree and in prosperous times. The 
strife that is part of the daily life in faraway lands is too 
remote to be noticed here.
    As such, we are not prepared for the crisis and mass 
casualties that would occur, God forbid, if there should be a 
chemical or biological release in a major American city. We are 
not prepared for any significant and concentrated assaults from 
terrorists. It is easy to stand up and say that Oklahoma City 
will never happen again, but to make that statement credible 
America must be fully committed to eliminating the factors that 
made Oklahoma City possible in the first place.
    Congress and the administration have taken many bold steps, 
and for that we are very grateful. But much, much more needs to 
be done particularly at the local level. That is why I am here 
today. In my view, America's decaying civil defense system 
needs to be overhauled and modernized with today's level of 
threat. Only a wholesale redesign of that civil defense system 
will enable public safety workers to be prepared for any 
unconventional terrorist attack that would include chemical or 
biological agents.
    Now, I am not saying that we need to harken back to the 
days of the Cold War and live in the fear of nuclear 
annihilation. And we certainly do not need to go back to 
building bomb shelters in our basements and teaching our 
children to climb under their desks in case of attack. What I 
am saying, however, is that the mechanisms in place to deal 
with true national emergencies are aging, spotty and unreliable 
in today's world.
    We have a whole generation of Americans whose only 
knowledge of civil defense is a scrolling message across their 
television set warning of severe weather. Most Americans do not 
even possess a basic understanding of what to do in an 
emergency. Again, it is not my purpose to be Chicken Little and 
proclaim the sky is falling, but Americans have a prevailing 
and reckless attitude that we are immune from any terrorist 
attack. And that attitude, that complacency, will complicate 
and jeopardize the public safety response to an attack.
    The question we face is not if we are attacked. Rather, 
when we are attacked, will we be as prepared as wecan be and 
will we be able to mitigate the damage. I believe that the Federal 
Government has realized this as well. As you know, since the enactment 
of the Nunn-Lugar legislation, billions of Federal dollars have been 
spent to shore up our capabilities in times of genuine emergency.
    In a sign of further commitment, the President has recently 
requested, and the Congress is likely to approve, $10 billion 
in new funding to meet the emerging threat of domestic 
terrorism. I am happy to see that $1.4 billion of that funding 
is designated for State and Federal preparedness efforts.
    While a financial commitment is important, the Federal 
Government also needs to provide additional assistance to help 
law enforcement prepare for the attack. We must have Federal 
training and equipment support through the Office of Justice 
Programs that Mr. Mitchell described in preparing for the 
attack, and we must have planning and coordination support from 
the National Domestic Preparedness Office that Barb Martinez 
testified about earlier, which is doing a great job of pulling 
that together. And I know you and I are not satisfied with how 
fast it goes. We want to see results faster, but they are doing 
a great job and moving as fast as they practically can.
    Each agency has their unique mission and their unique 
expertise. Law enforcement can draw on both to help them 
develop their preparedness strategies, and that is the key. It 
is clear to me that the emphasis needs to be on the State and 
local response. Contrary to popular belief, a terrorist 
incident is not just a Federal responsibility. In fact, unless 
Federal assets are pre-deployed, as they were for the papal 
visit and the Summit of the Eight, at the site of the attack, 
Federal agents will not be responding in a timely fashion.
    Like you, I have seen the attack scenarios for the anthrax 
release in Boston and the chemical release in the New York 
subway system. In both situations, local responders will have 
to make critical life-and-death decisions according to pre-
determined and practiced disaster plans. By the time the 
Federal Government musters a response, agents board a plane and 
the plane lands at the event site, the attack is over, 
casualties are being treated, the criminal investigation has 
begun.
    Outside of a few Federal agents from a local field offices, 
State and local responders will not be able to rely on a swift 
Federal response in a genuine attack. That leaves sheriffs as 
the only elected officials with operational responsibility to 
control the scene. That is why it is so important that the 
State and local responders have the support of the Federal 
Government before an attack occurs.
    Contrasted to the anticipated Federal response, law 
enforcement will arrive on the scene immediately after the 
emergency calls are received, establish perimeter security 
command and control, along with the firefighters and the EMS 
technicians who will be dispatched and respond to care for the 
sick and the injured. After local assets are exhausted, State 
and Federal resources will be brought to the scene. The State, 
through the National Guard--and Mr. Cragin's testimony about 
the regional RAID teams--may be prepared to respond quickly, 
but even essential State assets may be hours away.
    Sheriffs have a unique role in a multi-dimensional response 
to attack. We will have to establish command and control, 
mobilize the disaster plan that you mentioned earlier, Mr. 
Chairman, secure the crime scene, protect firefighters and EMS 
technicians from secondary devices, deal with the media, 
arrange for care for victims and their families, and coordinate 
all support efforts.
    And while there is great debate among public safety 
disciplines as to who is the true first responder, I submit 
that the sheriff, his deputies and other law enforcement 
officials are indeed the first responders. However, instead of 
wasting time debating this minor point before your committee, I 
would suggest that every available public safety official will 
respond and should yield the term ``first responder'' to maybe 
``emergency responder'' or ``unified incident command.''
    Mr. Chairman, in conclusion, the response to a domestic 
terrorist attack will be concentrated at the local level, and 
it will rapidly exhaust all of our resources. That is why we 
are here today. I hope that I have helped you understand that 
emergency responders to a terrorist attack are not prepared and 
we must make a concerted effort to overcome that problem. Be 
assured that all the public safety disciplines will respond to 
an attack, and all of us need substantial training and 
equipment to minimize the effect of the attack.
    Furthermore, it is also my firm belief that without a 
serious examination of the decaying civil defense system, no 
amount of preparedness will be adequate. We must move away from 
an antiquated civil defense system designed to prepare America 
for Soviet nuclear attack and move toward a dynamic, all-hazard 
civil defense system that provides us with the ability to 
respond swiftly to terrorist attack, as well as any other 
modern public safety situation. I would ask the committee to 
fully consider authorizing appropriations at the level 
sufficient to train and equip all local emergency responders, 
fortify the civil defense system and provide for a 
comprehensive Federal response.
    That concludes what I came prepared to testify to, and just 
to real quickly give you a briefing on the Columbine High 
School situation, at 11:10 a.m. this morning the Jefferson 
County 911 center received a report of shots fired in Columbine 
High School. This is a high school of probably close to 2,000 
students.
    Two or three young people, believed to be males, had black 
ski masks covering their heads and their necks. At this time, 
we believe that one had a shotgun; one had a 9-millimeter semi-
automatic pistol and one probably TEC-9, from the appearance of 
it right now, a fully automatic weapon.
    It started in the cafeteria, with shots being fired in the 
cafeteria at 11:00 a.m. in the morning with the beginning of 
lunch hour. The kids scattered out. We had eight kids out on 
the grass. And there was a great partnership between the fire 
service and law enforcement. Using engines as cover, the SWAT 
teams approached the kids down on the grass and loaded them up 
onto the fire truck and then back out to where they could get 
to the paramedic units, but using the large fire truck to 
absorb shots from the building itself while they rescued the 
kids from the grass on the school grounds.
    The SWAT team made entry into the building and they were 
fired upon. They were being fired upon and also doing 
evacuation of more kids. There are a number of kids inside that 
are wounded. We know of eight that we have at hospitals in 
Littleton at Swedish Hospital and Littleton Porter Hospital--
seriously wounded high school students, no fatalities as of my 
last briefing. But, again, it looks like students; from the 
information we are learning from other students there, it is 
fellow students with the masks on and with weapons and open 
fire.
    Senator Sessions. Such a tragedy. I hoped at one time we 
were just going through a spate of that and maybe we were 
through it, but it does not appear that we are. I think we 
ought to take a moment to appreciate the commitment of the fire 
department personnel who are out there risking their lives and 
the SWAT team that is in there risking their lives. And I just 
hope that we don't lose any lives in this process.
    Mr. Sullivan. We also have explosives involved. They have 
already encountered two pipe bombs. The kids report either 
grenades or other explosives going off in the building when the 
first initial shooting was going on. So we have bomb squads, 
SWAT teams, over 200 officers and 3 fire departments on the 
scene. There is lots of paramedic capability.
    Senator Sessions. Well, thank you for that report.
    [The prepared statement of Mr. Sullivan follows:]

             Prepared Statement of Patrick J. Sullivan, Jr.

    Mr. Chairman and Members of the Committee: My name is Patrick 
Sullivan and I am the Sheriff of Arapahoe County, Colorado, a suburban 
county of a half a million residents just outside of Denver. I am a 
member of both the Executive Committee and the Board of Directors of 
the National Sheriffs' Association and I serve as Chairman of NSA's 
Congressional Affairs Committee and its Subcommittee on Domestic 
Preparedness and Domestic Terrorism. Additionally, I am the law 
enforcement sector representative to the National Infrastructure 
Protection Center (formed to advise the National Security Council and 
the FBI). And I was recently appointed to the advisory committee of the 
National Domestic Preparedness Office by the Attorney General. I 
appreciate the Committee's interest in domestic terrorism and I 
appreciate the opportunity to speak, on behalf of elected sheriffs, to 
you today about the very real threat of a domestic terrorism event and 
how our country needs to be better prepared to meet the unique 
challenges of an attack within the United States.
    Mr. Chairman, as you can see, this issue is of great concern to me. 
I take terrorism very seriously and I have had some significant 
experience in domestic preparedness. Arapahoe County has hosted several 
major events, which also happened to be potential terrorist targets. In 
August of 1993, we hosted Pope John Paul II on his Papal visit to 
Colorado for World Youth Day.
    Several Papal event occurred in my jurisdiction and my deputies and 
I had to be prepared for any eventuality. Not only did we assist in 
Papal security, but we also experienced mass casualties as the outdoor 
events gathered more than 400,000 people with 7,000 heat victims 
succumbing to the weather. In June 1997, Arapahoe County co-hosted the 
G-8 Summit with the City of Denver. Again, many of the venues for the 
summit were in my jurisdiction and I had to develop a comprehensive 
preparedness plan anticipating all manner of threat. Most recently, in 
fact, last week, we hosted Chinese Premier Zhu and his entourage and 
again, we developed a preparedness plan to meet the threat. Believe me, 
I can commiserate with emergency planners here in Washington. They have 
a monumental task as they make the final arrangements for the NATO 
Summit!
    Throughout our history, the United States has rarely faced internal 
threats. Nevertheless, in this era of global communications and 
transportation, America faces a new threat from domestic terrorism. 
Recent bombings in New York City, Atlanta and Oklahoma City have taught 
us that international and domestic terrorists can strike any target in 
any county.
    Terrorism is no longer just a threat for international travelers 
and workers. Terrorists today are no longer limited to detonating bombs 
on board airliners. They are no longer limited to attacking Americans 
in foreign cities and they are no longer limited to attacking American 
facilities in other countries.
    They have the means and the will to launch attacks from within the 
United States on targets in the United States. The World Trade Center 
bombing demonstrated that all too clearly. And we are no longer facing 
known international terrorist organizations and their operatives. We 
are beginning to face threats from unknown sources from within. 
Sheriffs recognize that these threats are from militias, hate groups 
and others disenchanted with our government who are willing to 
communicate their message through violence. As demonstrated with the 
tragic Oklahoma City bombing, the terrorist was one of our own--an 
American. That is a new challenge and one that needs to be taken 
seriously.
    And while others may be reluctant to say so, I will tell you that 
America is not ready to meet this challenge. Because we as a Nation do 
not have experiences like people living in the Middle East or in 
Northern Ireland or in other troubled locales.
    Americans live carefree and in prosperous times. The strife that is 
a part of daily life in far away lands is too remote to be noticed 
here. As such, we are not prepared to handle the crisis and mass 
casualties that would occur, God forbid if there should be a chemical 
or biological release in a major American city. We are not prepared for 
any significant and concentrated assault from terrorists. It is easy to 
stand up and say that Oklahoma City will never happen again, but to 
make that statement with credibility, America must be fully committed 
to eliminating the factors that made Oklahoma City possible in the 
first place.
    Congress and the Administration have taken many bold steps and for 
that, we are grateful. But much, much more needs to be done. That is 
why I am here today. In my view, America's decaying civil defense 
system needs to be overhauled and modernized. Only a wholesale redesign 
of the civil defense system will enable public safety workers to better 
prepare for any unconventional terrorist attack that would include 
chemical or biological agents. Now, I'm not saying that we need to 
hearken back to the days of the Cold War and live with the fear of 
nuclear annihilation. And we certainly do not need to go back to 
building bomb shelters in our basements or teaching children to climb 
under their desks in case of attack. What I am saying, however, is that 
the mechanisms in place to deal with true national emergencies are 
aging, spotty and unreliable in today's world. We have a whole 
generation of Americans whose only knowledge of civil defense is a 
scrolling message across their television set warning of severe 
weather. Most American's do not even possess a basic understanding of 
what to do in an emergency. Again, it is not my purpose to be Chicken 
Little and proclaim the sky is falling, but Americans have a prevailing 
and reckless attitude that we are immune from any terrorist attack. And 
that attitude, that complacence, will complicate and jeopardize the 
public safety response to an attack.
    The question we face is not if we are attacked, rather, when we are 
attacked will we be as prepared as we can be and will we be able to 
mitigate the damage? I believe that the federal government has realized 
this as well. As you know, since the enactment of the Nunn/Lugar 
legislation, billions of federal dollars have been spent to shore up 
our capability in times ofgenuine emergency. In a sign of further 
commitment, the President has recently requested, and the Congress is 
likely to approve $10 billion in new funding to meet the emerging 
threat of domestic terrorism. I am happy to see that $1.4 billion of 
that funding is designated for state and local preparedness efforts.
    While a financial commitment is important, the federal government 
also needs to provide additional assistance to help law enforcement 
prepare for an attack. We must have federal training and equipment 
support through the Office of Justice Programs (OJP) in preparing for 
an attack and we must have planning and coordinating support through 
the National Domestic Preparedness Office (NDPO). Each agency has their 
unique mission and their unique expertise. Law enforcement can draw on 
both to help them develop their preparedness strategy.
    And that is the key. It is clear to me that the emphasis needs to 
be on the state and local response. Contrary to popular belief, a 
terrorist incident, is not just a federal responsibility. In fact, 
unless federal assets are predeployed at the site of the attack, 
federal agents will not be responding in a timely fashion. Like you, I 
have seen the attack scenarios for an anthrax release in Boston and a 
chemical release in the New York subway system. In both situations, 
local responders will have to make critical life and death decisions 
according to a predetermined and practiced disaster plan. By the time 
federal government musters a response, agents board a plane and the 
plane lands at the event site, the attack is over, casualties are being 
treated and the criminal investigation has begun.
    Outside of a few individual federal agents from the local field 
offices, state and local responders will not be able to rely on a swift 
federal response in a genuine attack. That leaves sheriffs alone as the 
only elected officials with operational responsibility to control the 
scene. And that is why it is so important that state and local 
responders have the support of the federal government before an attack 
occurs.
    Contrasted to the anticipated federal response, law enforcement 
will arrive on scene immediately after the emergency calls are received 
and establish a command center. Second, firefighters and EMS 
technicians will be dispatched and respond to care for the sick and 
injured. After local assets are exhausted, state and federal resources 
will be brought to the scene. The state, through the National Guard, 
may be prepared to respond quickly, but even essential state assets may 
be hours away.
    Sheriffs' have a unique role and a multidimensional response to an 
attack. We will have to establish command and control, mobilize the 
disaster plan, secure the crime scene, protect firefighters and EMS 
technicians from secondary devices, deal with media and press 
distractions, arrange care for the victims and their families and 
coordinate all support efforts. And while there is a great debate among 
the public safety disciplines as to who is the true first responder, I 
submit, that the sheriff, his deputies and other local law enforcement 
officials are indeed the first responders. However, instead of wasting 
time debating this minor point, before your committee, I would suggest 
that every available public safety official will respond and we should 
yield the term first responder to the term emergency responder.
    Mr. Chairman, in conclusion, the response to a domestic terrorist 
attack will be concentrated at the local level and it will rapidly 
exhaust all of our resources. That is why we are here today. I hope 
that I have helped you understand that emergency responders to a 
terrorist attack are not prepared and we must make a concerted effort 
to overcome that problem. Be assured that all of the public safety 
disciplines will respond to an attack and all of us need substantial 
training and equipment to minimize the effect of the attack. 
Furthermore, it is also my firm belief that without a serious 
examination of the decaying civil defense system, no amount of 
preparedness will be adequate.
    We must move away from our antiquated civil defense system designed 
to prepare America for a Soviet nuclear strike and move towards a 
dynamic civil defense system that provides us with the ability to 
respond swiftly to a terrorist attack as well as any other modern 
public safety situation. I would ask the Committee to consider fully 
authorizing appropriations at a level sufficient to train and equip all 
local emergency responders, fortify the civil defense system, and 
provide for a comprehensive federal response.
    Thank you for your time this afternoon and I look forward to 
answering any questions you may have.

    Senator Sessions. Dr. Alcorta.

                STATEMENT OF RICHARD L. ALCORTA

    Dr. Alcorta. Thank you for this opportunity, Chairman 
Sessions.
    Senator Sessions. I believe the two of you are reporting 
together?
    Dr. Alcorta. Yes, sir.
    Senator Sessions. That will be fine, however you choose to 
do it.
    Dr. Alcorta. Thank you very much, sir. We have submitted 
testimony, both Dr. Joseph Waeckerle and myself, as 
representatives of the American College of Emergency 
Physicians, where we represent more than 20,000 emergency 
physicians and nearly 1 million EMS providers and their 
patients.
    Currently, there are multiple Federal funding streams for 
planning, training, exercise, equipment, information-sharing 
technologies, and research and development in the area of 
disaster preparedness. For State and county administrators, 
this poses a great challenge to keep abreast of what funds and 
educational programs are available and from what Federal 
agencies.
    We applaud U.S. Attorney General Janet Reno's effort to 
address this concern by developing a national office that will 
provide a single Federal point of contact and reduce the 
duplication of effort in grants, training standards, and 
Federal support to the emergency medical community.
    Maryland is currently looking at this challenge and has 
developed a Medical Steering Committee for Weapons of Mass 
Destruction, realizing there is an incredible need for improved 
coordination at the State level with EMS response and public 
health service response. To that end, there has been 
development of four subgroups or focus groups. There is clearly 
an EMS or pre-hospital, there is the hospital. There is the 
Public Health Service, which is early detection, surveillance, 
and then determining the appropriate response, particularly in 
a biologic event, and then the medical communications.
    From those lessons being learned now, we are putting 
together a strategic plan because we clearly see a void at the 
State level. There is clearly a response at the first responder 
level being injected into the communities which is absolutely 
essential and we support that. But there is also a need for 
planning and orchestration in the administration at the State 
level between both health departments and the State EMS lead 
agencies, and it frequently bleeds over into the emergency 
management agency because all of them are interrelated and they 
have to have an orchestrated plan of response. This is the big 
challenge I keep hearing, is Federal, to the State, to the 
local, and how do we play nice together.
    When we look at the needs, there are clearly natural 
disasters which involve floods, hurricanes and earthquakes. As 
you heard from Dr. Hughes, there is also the emerging 
infectious diseases which have a very unique characteristic, 
but have similarities in biologic weapons of mass destruction 
and are man-made in some respects, particularly in their 
dissemination process.
    We look at explosives, chemical, nuclear and biological, 
and in many respects the chemical and explosives are fairly 
well-defined. There may be thousands of victims. But when we 
start moving into the biologic arena, it goes beyond thousands; 
it becomes entire communities, entire States, our entire 
Nation, and potentially the international community as a whole.
    That is why I wish to focus on the biologic aspects, not 
overlooking the chemical, explosive or radiologic, but wish to 
make some very concrete recommendations in the biologic arena 
because they apply to all. And if we have the infrastructure to 
address biologics, and keep in mind all those aspects that 
apply to chemical, radiologic and nuclear, I think we can have 
a much more robust response system.
    Clearly, when we look at biologic agents, there are weapons 
of mass destruction some of which we have not seen in many 
generations. Some have theoretically been eradicated, smallpox 
being a classic example. But they are very real. As a 
practicing emergency physician, I do not normally keep in my 
armamentarium smallpox. When I see someone coming in, I start 
thinking pneumonia, flu, maybe chicken pox. I do not have on my 
radar smallpox. That is a critical flaw in our system. It has 
to do with education, and education to the right population. 
And Dr. Waeckerle will be discussing more on that issue.
    We need to be able to identify the organisms in a very 
rapid process and address the special fashion of their routes 
of infection, containment, and treatment modalities. Moreover, 
it is an appropriate response to try and mitigate the potential 
catastrophic event. As a result, not only do health care 
professionals need a plan and be prepared for special demands 
in these events, but we also have to consider the very unique 
challenges presented by these biologic weapons.
    If we look at detection, detection today is one of the 
great difficulties. Most of us think hospitals identify, public 
health identifies, infection control identifies these diseases. 
Some of these are not being tested for today. They are not even 
reported on a routine basis, and it is a big challenge for us.
    For example, a patient presents with a constellation of 
symptoms very much like the flu because most biologic agents 
present just like the flu. And how do we screen that agent from 
the seasonal development of the flu? What occurs is an 
emergency department, once a patient has entered, although they 
may have been transported by EMS but enters an emergency 
department--a physician determines that that patient needs to 
be admitted because of their underlying symptoms, not because 
they have some unusual disease, but because they are having 
respiratory distress, for example. That patient then will be 
admitted to a resource.
    Realize there are barriers to admissions now. There are 
HMO's that require screening information, so there is a barrier 
process that is currently going up, keeping emergency 
physicians from admitting patients into a hospital, and 
limiting some of those test to, ``the most appropriate tests.''
    Well, once that occurs, there may be a consultation. That 
may be an infectious disease consultant that comes into the 
emergency department and then admits that patient to the 
hospital. The patient has a ``facinoma,'' is what we like to 
call it because we don't know what that disease is. A battery 
of tests are then conducted, with the identification hopefully 
of the actual causative organism, which may take days.
    During that process, there is not a notification of 
theinfectious disease at the State jurisdictional or State level, which 
then should trigger a cascaded response. Right now, there is a green 
card that is currently mailed in for many of our reportable diseases, 
and only a few have a phone call notification process. This must be 
improved and standardized.
    To improve the response time, there needs to be a real-
time, standardized regional, State single point of contact for 
notification of biologic agents to assist in the sentinel 
identification of diseases, particularly for clusters and/or 
the unusual sentinel events, which currently is not in place. 
The CDC clearly is working on this, working with local and 
State health departments.
    We look at response. Regrettably, our hospitals have become 
a shrinking resource. We have lost the elasticity to respond to 
a surge of inpatients. This is a critical flaw and needs to be 
reversed. We clearly have financial constraints that are 
driving us in that direction, but hospitals are moving to a 
just-in-time capability. That is staffing, that is supplies, 
that is medical antidotes and antibiotics. If we have a surge 
right now, I can assure you we cannot manage that surge. We 
have a real crisis.
    For example, in Maryland when we had the viral episode this 
last fall, our hospitals for pediatric patients were saturated. 
We had to divert patients out of the State of Maryland. This is 
not a weapons of mass destruction event. This happens to be our 
seasonal flu, which happened to be a little more severe, also 
at a time when we were seeing decreasing resources in our 
hospitals. This needs to be turned around.
    I look at the hospitals as probably being one of our 
weakest links. It is, to me, an unmet need because clearly 
there are standards, the Joint Commission on Accreditation of 
Hospital Organizations, which try and address to some extent 
weapons of mass destruction and chemical involvement. Those 
accreditation standards you could drive a Mack truck through as 
far as the actual requirements for a hospital to be prepared 
for a weapon of mass destruction, particularly chemical 
response to a disaster. Those need to be improved. They need to 
be standardized. They need to have some teeth in them, which 
the JCAHO has because you could lose Medicaid funding.
    Furthermore, the administration of these hospitals have a 
disincentive to follow these. It is a cost. There are training 
costs, there are equipment costs, and in some cases 
restructuring of that physical plant to meet a hazardous 
material or a biologic event. In the State of Maryland, we have 
done a review and we have less than 160 isolation beds in our 
State, 81 of which actually meet biologic requirements. That is 
insufficient. We need to have a commitment by administration, 
both Federal administration and the administrators of 
hospitals, that this is a system-wide need. We cannot respond 
to a surge. You will hear a little more about anthrax and the 
biologic necessity from Dr. Joe Waeckerle in just a moment.
    The next aspect I think clearly is the medical education, 
appropriate medical education, to respond to biologic agents. 
As I mentioned earlier, many of these agents are no longer on 
our radar. They need to be addressed.
    Who are going to be the first casualties? The first 
casualties are going to be EMS, law enforcement, fire. But it 
is also, in the biologic arena, going to be the public health 
care professionals, the emergency department staff and 
hospitals. They are going to get knocked out and if we cannot 
protect them through educational means, through standardized 
programs and appropriate equipment, we are going to lose the 
infrastructure of our health care within days and we will not 
have a depth of resource to backfill at this time. It would 
critically cripple our capability.
    In closing, the multiple private and public sector health 
care resources must be centralized and integrated for 
processing of surveillance, early detection and notification, 
with epidemiologic community assessment, rapid containment and 
critical care treatment pathways for patient management, both 
from a Federal perspective when integrated into the State and 
integrated into the local. It has got to go back up as well. 
The diverse incentives need to be united under a Federal 
umbrella through established, properly designed training 
programs with Federal funding and Federal-mandated standards.
    Thank you very much, Chairman Sessions.
    Senator Sessions. Thank you very much, doctor, for your 
report.
    Dr. Waeckerle.

                STATEMENT OF JOSEPH F. WAECKERLE

    Dr. Waeckerle. Thank you, sir. Good afternoon, Senator 
Sessions and all involved. Rather than reiterate the written 
statements presented by my colleague, Dr. Alcorta, I thought it 
most apropos to talk about some of the events that have 
transpired over last year-and-a-half, and to use those to 
illustrate what my previous expert colleagues on the two panels 
have presented to you today.
    In 1998, there were approximately 181 anthrax scare hoaxes 
in the United States of America. In 1999----
    Senator Sessions. How many, 181?
    Dr. Waeckerle. Yes, sir. In 1999, year to date, there are 
112 so far perpetrated on America communities. In Kansas City, 
recently we experienced one of those. Taking that into account, 
I thought it might be a nice way to illustrate the importance 
of what you are championing today and that we are discussing 
with you. So I thought it would be best to summarize some of 
the lessons learned from these anthrax hoaxes because certainly 
while none has been credible so far, that does not mean in the 
future it won't be credible.
    I, too, agree, that the greatest weapon of mass destruction 
that could potentially ruin mankind is a biologic weapon, in 
the face of genetic reengineering, and the will of certain 
people with tremendous expertise in other countries to utilize 
these weapons.
    The first is the fact that information-sharing is an 
essential component of any plan. Due to the sheer number of 
agencies that we have discussed and you are aware of and the 
tremendous number of people involved, if we do not share 
information prior to any event, we will not have better 
prevention, better deterrence, and a better response to 
mitigate the event.
    The second, in a sine qua non, of all of what we discuss 
today is surveillance, as my colleagues have pointed out. And 
not only is it surveillance from public health and epidemiology 
infrastructures; certainly, those need to be augmented, funded 
and reestablished. But I propose to you that it needs to be 
considered that the best form of surveillance is an educated 
health care community and health care professionals and first 
responders. To that end, ourcountry's first line of defense is 
those that are better educated, better aware, and have a higher index 
of suspicion.
    The American College of Emergency Physicians, from the 
Office of Emergency Preparedness and Dr. Knauss under contract, 
has currently convened a task force to look at education of all 
health care professionals that are first responders, and I 
chair that. We will have our report from the second year of our 
activities available in the near future and I believe it will 
be of interest to you.
    The next area that we can summarize that was an obvious 
difficulty in the anthrax responses and continues to be a 
difficulty as it has plagued all disaster response in the past 
is communications. The communication system is essential. I 
believe Smoky addressed that earlier, my colleague from Lee's 
Summit. You have two Missourians here today, so it is a ``show 
me'' State here.
    We need to bring all essential agencies, from the local 
community to the Federal family, to the table. If we do not 
have good communications, the local community will be isolated 
and will be required to fully implement a response which it 
can't do in the face of a weapon of mass destruction. The 
Federal family is essential, all of the agencies of the Federal 
family, including a new concept for all of us in health care, 
and that is law enforcement involvement to protect us and to 
bring the perpetrators to justice.
    Appropriate response plans which have been tested through 
realistic drills need to be implemented prior to an event 
occurring. The best disaster plans need to be done prior to an 
event. Otherwise, any scenario that occurs during the disaster 
response is a disaster itself.
    The incident management system needs to be implemented, and 
that is foreign to some sitting at this table, unfortunately. 
Health care facilities, as Dr. Alcorta just spoke of, need to 
be incorporated into the Federal response plan and the local 
response plan, with administrators' buy-in. We need to have 
caches of treatment facilities and regimens quickly available 
and current, not out-of-date medicines and vaccines.
    We need to protect our health care providers, our regular 
patients, our victims, and all of the rest of us in the 
community. We need to protect our environment. I would only 
point out to you that anthrax will destroy the environment for 
50 to 100 years--anthrax spores. And, finally, we need to 
implement something that we haven't thought of for other 
disasters, and that is post-event surveillance programs to 
protect all of the people who are exposed to a chemical or 
biologic agent.
    Keeping those lessons learned in mind, the American College 
of Emergency Physicians and its 20,000 physicians fully support 
Attorney General Reno and the Department of Justice's approach 
to discovering our needs and thoughts through the stakeholders 
meeting. We fully support the strategies delineated from the 
stakeholders meeting and the actions taken since, and we would 
like to congratulate you on your insightful leadership for 
championing this cause. And we hope it continues in the future 
with the funding and actual implementation of one office that 
coordinates all of the Federal agencies to accomplish the goals 
we have discussed today.
    [The prepared statement of Dr. Alcorta and Dr. Waeckerle 
follows:]

        Prepared Statement of Richard L. Alcorta, MD, FACEP and 
                     Joseph F. Waeckerle, MD, FACEP

    I am Richard L. Alcorta, MD, FACEP, and I am an American Board of 
Emergency Medicine certified physician. I started my Emergency Medical 
Services (EMS) career as an Emergency Medical Technician-Ambulance and 
went on to become a Paramedic in California. I received a Bachelor of 
Science degree at San Diego State University and, in 1983, graduated 
form Howard University School of Medicine. I completed an Emergency 
Medicine Residency at Harbor-UCLA Medical Center in 1986 and was a 
faculty member of the Emergency Department at Johns Hopkins Medical 
Center. Since 1987, I have been practicing Emergency Medicine at 
Suburban Hospital Shock Trauma Center. From 1992 to 1994, I was the 
State EMS Director and in 1995 was appointed as the State EMS Medical 
Director at the Maryland Institute for Emergency Medical Services 
Systems (MIEMSS). I am the Chemical Stockpile Emergency Preparedness 
Program (CSEPP) State Medical Director for Maryland.
    Joseph F. Waeckerle, MD, FACEP, is currently the Chairman of the 
Department of Emergency Medicine at Baptist Medical Center and Menorah 
Medical Center and Clinical Professor at the University of Missouri--
Kansas City School of Medicine. He also is Editor in Chief of Annals of 
Emergency Medicine. He is residency trained and board certified in 
Emergency Medicine and Sports Medicine with postgraduate work in 
exercise physiology. He is certified in tactical medicine as well. He 
has a long history of involvement in Emergency Medical Services and 
Prehospital Care. He was the Medical Director of Kansas City, Missouri 
EMS System from 1976 through 1979 and then a Trustee of the Board of 
Trustees through 1991. He is currently the Medical Director of Leawood, 
Kansas EMS System and serves on the Johnson County EMS Council and 
Johnson County Medical Society EMS Committee. He has served as 
President for the Society of Academic Emergency Medicine and Director, 
Board of Directors of the American College of Emergency Physicians. He 
was also a Director of the Board of Directors of the Emergency Medicine 
Foundation.
    We are here today representing nearly 20,000 emergency physicians 
and nearly 1 million EMS providers and their patients.
    We have been asked to express the needs and opinions of the 
emergency medical community on the issue of ``Domestic Preparedness in 
the next Millennium,'' focusing on the distribution of Nunn-Lugar-
Domenici funds to the local community and how the Administration plans 
to carry out its mission in training first responders.
    Currently, there are multiple federal funding streams for planning, 
training, exercises, equipment, information sharing technologies, 
research, and development in the area of disaster preparedness. For 
state and county administrators, this poses a great challenge to keep 
abreast of what funds and educational programs are available and from 
which federal agency. We applaud U.S. Attorney General Janet Reno's 
effort to address this concern by developing a national office that 
will provide a single federal point of contact and reduce the 
duplication of effort for grants, training standards, and federal 
support to the emergency medical community.
                                 needs
    Natural disasters include floods, hurricanes, and earthquakes. Man-
made weapons of mass destruction can be explosive, chemical, 
radiological, and biologic. While both can be disastrous effects, 
chemical agents have a potentially catastrophic effect to impact 
thousands, with the impact being relatively finite in the national or 
international scope. However, a biological event will impact hundreds 
of thousands of citizens and not be contained within a county, state, 
or nation. Therefore, we would like to focus on the needs associated 
with biologic agents that are weapons of mass destruction. Many of the 
following points apply to some or all of the agents.
    Biologic agents classified as weapons of mass destruction do not 
result in unique or obvious external initial signs or symptoms in 
people that distinguish them from everyday illnesses such as flu 
(influenza), pneumonia, or chicken pox. Detection and identification of 
a biologic release can be complex and most likely will be based on a 
``sentinel event,'' such as an unusual fatality, a unique laboratory 
culture finding, or a cluster of patients with symptoms that are ``out 
of season.'' Once identified, each kind of organism has to be addressed 
in a special fashion since each has its own route of infection, 
containment, and treatment management.
    Moreover, an appropriate response that mitigates the potential 
catastrophic consequences of a bio event requires a different approach 
from other weapons of mass destruction events. As a result, not only do 
health care professionals need to plan and prepare for the special 
demands of an event, but we also need to consider the very unique 
challenges presented by the use of biological weapons.
                               detection
    Currently, the process for detecting a reportable infectious 
disease is slow and time-consuming. For example, when an emergency 
department physician determines an individual is ill enough to warrant 
admission to the hospital, he/she notifies the primary care or internal 
medicine physician to admit the patient. In some instances, the 
insurance carrier may require justification before allowing the 
admission.
    If there is a suspicious presentation (such as a constellation of 
signs and symptoms), the emergency physician or the admitting physician 
may request a consultation by an infectious disease specialist to 
identify and manage a particular illness. If a consultation is called, 
it may take several days to determine the organism causing the illness, 
especially if it's a viral agent that does not grow out in cultures and 
requires specialists serological (antibody) testing.
    Only when tests have identified an unusual, deadly, or highly 
infectious organism does the hospital's infection control staff get 
notified. Once the disease is determined to be a reportable disease, 
the hospital (laboratory, infection control officer, or physician) will 
notify the health department by sending a postcard, which frequently 
delays notification by 4 to 10 days. For a select few diseases, a phone 
call is the method of notification.
    To improve the response time, there needs to be a real-time, 
standardized, regional and state, single point of contact for system 
notification about biological agents associated with sentinel/index 
diseases and clusters of cases of a particular biologic naturea 
recommendation that is supported by the Institute of Medicine Report. 
This needs to be a 24-hours-a-day, 7-days-a-week, contact that can 
serve as a system trigger, as well as a central repository and analysis 
center, for unusual disease presentations.
    This kind of system is essential to rapidly identifying a 
potentially significant biological outbreak and to improve the 
management of patients. Through this process, there will be a 
horizontal notification of adjacent agencies and medical specialities, 
as well as a vertical notification of local, state, and federal health 
agencies, including the Center for Disease Control (CDC).
    Local and state health departments, along with the CDC, conduct 
biological surveillance and develop containment strategies and 
treatment recommendations within the United States. However, local 
health departments regrettably have been a source for administrative 
budget cuts. For example, the average income of a health department 
practitioner is approximately one-third less than that of the standard 
practitioner in the private sector. So although a great deal is 
expected from local health departments, the infrastructure that will be 
most challenged by a biologic event is being underfunded.
                                response
    There is a continuing loss of hospital and public health system 
``elasticity'' or flexibility in responding to a crisis, which can 
significantly be attributed to administrative cost containment measures 
related to managed health care. Most hospitals have moved to a ``just 
in time'' inventory and personnel management, which means that even 
minor surges in patient volume can put a tremendous strain on a 
particular institution, as well as on the medication/supply 
replenishment system, because supplies and personnel are limited to 
reduce costs.
    For example, when a medication or supply is depleted, a report is 
issued in the hospital, which then requests a replacement from its off-
site retail distributor, who usually provides the replacement in a day 
or two. However, in a scenario where hundreds of patients need 
treatment for a chemical or biologic attack, multiple hospitals will 
have to use the same retail vendor. This means the strain will have a 
disturbing domino effect and at the very least will delay medication 
replacements, which could result in significant unnecessary deaths.
    In my state of Maryland, for example, there has been an increase in 
influenza (flu) patients, which had led to congested emergency 
departments and to an increase in hospital admissions. Because the 
overall hospital system has been forced to limit inpatient hospital bed 
availability and because ``open'' pediatric beds often cannot be found, 
Maryland hospitals are transferring pediatric patients from Maryland to 
Richmond, Virginia.
    This flu is not a critical outbreak of a deadly disease, but the 
``just in time'' inventory management system means there are only 
enough resources in anyone particular hospital to manage a finite 
(frequently very low) number of patients. Isolation beds are even more 
scarce in Maryland. In addition, our hospital beds are progressively 
being converted to office space and are not recoverable as patient care 
space. As cost containment matters escalate, we are also losing 
qualified nursing and physician staff for patient management.
    To improve hospital response time to a disaster involving a weapon 
of mass destruction, there needs to be an augmentation of the Joint 
Commission on Accreditation of Healthcare Organization (JCAHO) 
standards. JCAHO establishes hospital accreditation standards and 
inspects hospitals to ensure compliance with those standards. New 
biologic outbreak standards need to address the lack of elasticity in 
the current health care system, especially in the areas of availability 
of beds, medication, and equipment. Patient decontamination standards 
also need to be improved to decrease the exposure risks to the hospital 
staff. In addition, there needs to be a standard requiring integration 
of the hospital with the EMS system and the health department in a 
surveillance, data collection, and patient management mode. There needs 
to be funding for realistic exercises that truly evaluate the 
effectiveness of these standards.
    Furthermore, administrative personnel and health care providers 
must commit to the standard biological weapons of mass destruction 
training and monitoring processes. There must be a centralized data 
submission process to the health departments and the CDC with 
centralized analysis and collation of real-time infectious disease 
monitoring, with immediate triggers for epidemiologic source 
identification (risk population determination), mitigation for the 
community at risk, and critical care treatment pathways to minimize 
casualties. This centralized data process should also be able to trend 
local, state, and regional baselines and frequencies of disease types 
on a regular basis so that unusual presentations of a ``common disease 
complex'' can be used as a sentinel or cluster event to trigger 
epidemiologic investigation.
    To effectively respond to a biologic event, such as an anthrax 
release, emergency medical service response personnel must integrate 
their efforts with health departments. In most states and jurisdictions 
(counties and cities), a biologic event would be a public health 
crisis. For example, to prepare for an influenza ``shift'' that could 
cause another worldwide outbreak (predicted to occur every 10-30 years 
and we approach the 30-year mark), mechanisms are being put into place 
to establish annual vaccinations for the influenza. This process 
ideally is an annual cycle, but it requires months to vaccinate only a 
fraction of the United States's population.
    So there must be an integrated response of the EMS systems with the 
health departments to even begin to address a cascade of issues, such 
as the distribution of antibiotics or vaccination of the at-risk 
population, manning of off-site treatment facilities, and scope of 
practice for EMS providers. Likewise we need to have adequate plans and 
medical provider education for appropriate response to biologic agents.
    This response then needs to be augmented by the U.S. Public Health 
Service with trained professionals, antibiotic/vaccine (pharmaceutical 
caches), and out-of-system hospital beds and transportation.
                               casualties
    Most vulnerable to a biologic release are the paramedics and EMS 
response personnel, primary health care practitioners, and emergency 
department physicians and staff. This represents another problem in 
responding to a biological crisis, because these people are the 
infrastructure of our national health care safety network. Without a 
real-time identification of a highly infectious biologic organism, this 
critical cadre of physicians and health care professionals, as well as 
the health care system, will be seriously, if not fatally, crippled.
    The loss of life and incapacitation of the health care community by 
an undetected infectious biological organism will be directly 
proportional to the education of that health care population, how 
rapidly an organism is detected and identified, the severity of 
illness, the response and implementation of definitive interventive 
care, the overall containment of the disease, and post-event 
surveillance of all involved.
    To educate health professionals and reduce the number of casualties 
in the health care community and the general population, the current 
curricula for health care providers must be expanded and integrated 
into the existing medical educational programs for health care 
professionals, EMS personnel, nurses, and physicians.
    In this way, an ``augmentation'' of the standard of practice will 
occur on a routine basis, ensuring familiarity and frequent use. This 
``augmented'' standard of practice will then become ``the standard of 
care'' for our nation. This curriculum is currently being addressed by 
the United States Public Health Service by a grant to the American 
College of Emergency Physicians. An ACEP task force is looking at the 
knowledge base of health professionals and their population work 
profile to develop strategies to expand the curricula, which will then 
be tested for its effectiveness.
    In closing, the multiple private and public sector health care 
resources must have a centralized and integrated process for 
surveillance, early detection, and notification with epidemiologic 
community risk assessment, rapid containment, and critical care 
treatment pathways for patient management. The diverse incentives need 
to be united under the federal umbrella through established, properly 
designed, training programs and federally mandated standards.

    Senator Sessions. Thank you very much. Those are some very 
good comments, and I think it helps to set the stage properly 
for where we are today.
    Creating a tested response plan, I think, to use your 
words, is probably the best thing that we can do. I am from 
Mobile, AL, and was there during the last hurricane. We have a 
emergency response center and all the chiefs of police and all 
the fire people have a desk with their name on it in letters 
this big. And they can come to the same room and they know all 
the assets that are available and they can respond to that. It 
may not be quite the same--I am sure it is--for the biologic 
event, but it is something similar where everybody realizes 
they have got to bring what they have got to the table to deal 
with it.
    Let me ask you--also, I believe, Dr. Alcorta, you mentioned 
that we need Federal funding and Federal uniform training 
standards. Why do you think a uniform training standard is 
important?
    Dr. Alcorta. I think it is extremely important to look at 
the diverse groups we are talking about here. They each have a 
unique need. A law enforcement officer does not need to know 
the differential diagnosis of biologic agents. Each of these 
training standards for each expertise needs to be well-defined 
to meet the needs and the educational background for that 
specialty, realizing that one shoe does not fit all.
    What we need to have is an integrated backbone of 
educational response so that we understand what their knowledge 
base is, what EMS and their paramedics knowledge base is, what 
the emergency department knowledge is, following on with 
infection control and public health surveillance models. These 
can be overlaid in many different states. They can be 
reproduced at the county level, at the city level, or at the 
State level.
    With that, it needs to take into account the existing 
curricula that an emergency physician would be trained in from 
the start, and bring into that the essential components that 
will improve his recognition capability and detection 
capability of a biologic event or a chemical event and how he 
would manage that.
    Backfilling with that, there needs to be a process or a 
plan that everybody understands for a single-point contact, a 
reporting process, a trigger, if you will. That is currently 
not in the training process for emergency physicians. You can 
fudge it if you want to, but most of us don't have that depth 
of expertise. So there needs to be a program that augments what 
we currently have and there needs to be an improvement in the 
existing standard education package to meet that need. That is 
what Dr. Waeckerle and this committee are attempting to do.
    Senator Sessions. Well, I think you are exactly correct.
    Chief Dyer, would it be fair to say your concern is that 
when we establish Federal standards that we ought to listen to 
the fire chiefs and the fire expertise that the fire chiefs 
have developed and make it consistent with the standards you 
already have so far as possible, and just make it part of your 
own ongoing, existing process? Would that be fair to say?
    Mr. Dyer. Yes, and I think that is also what the physicians 
are saying. We already have standards for training, operations 
and equipment for handling hazardous materials incidents. So 
whether a terrorist releases a railroad car of chlorine in a 
downtown area or that chlorine release is from a train 
derailment, responding to that incident is going to be the 
same. What we don't want to come up with is a separate set of 
terrorism standards for a criminal hazardous materials release 
and then having a hazardous materials standard and them being 
different, because then we are going to be wasting a lot of 
resources.
    I think what all of us are saying is we need in terrorism 
an overlay to do additional training of what we already have in 
our varying disciplines. That is the same way with the 
planning, and I think that is what the sheriff was saying. We 
need all-hazards planning for emergency response to any 
emergency or crisis, and then the terrorism part needs to be an 
annex so that we don't have a terrorism plan that differs from 
what our HAZMAT plan is.
    Senator Sessions. You don't want an entirely new terrorism 
bureaucracy.
    Mr. Dyer. Exactly.
    Senator Sessions. Sheriff, do you agree with that?
    Mr. Sullivan. Yes, very much so, and Chief Dyer's comments 
on the incident command system need to be adopted not just 
across the local level here for law enforcement and fire 
service, but also vertically with the Federal Government.
    When we did the G-8 conference in Denver in June 1997, we 
had to put on incident command training for Federal officials 
to help that integration of the Federal assets. There were lots 
of Federal assets pre-deployed for that, but they didn't 
understand how we worked. So the incident command system 
provides a system for fire, law enforcement, emergency medical, 
and we just need to encourage that to involve the Federal 
agencies as well.
    Dr. Alcorta. Let me make one other point, if I may. If we 
look at the hospitals, they currently have an administrative 
hierarchy. They do not have an incident command hierarchy, and 
most hospitals do not communicate hospital to hospital. So 
there is not an orchestration of one hospital needing resources 
from another hospital and how they would get that from an 
adjoining hospital or a hospital from outside their State.
    These are independent, frequently private entities that are 
competitors and they do not communicate on a routine basis, 
which needs to occur if they should fall into an incident 
command or unified command structure where they can send 
representatives to communicate their needs in a significant 
event.
    The other aspect is, internally, hospitals are not set up 
currently to have an incident command structure. It isn't the 
CEO who knows about the disaster plan. It isn't necessarily the 
head of nursing. It frequently falls to the emergency 
department to be the lead in any significant incident because 
that is the portal of entry. And what needs to occur is 
hospitals need to adopt an incident command structure so that 
they can interface with other hospitals and the community/State 
at large and the Federal agencies, let alone control their 
internal----
    Senator Sessions. Who could sort of initiate that? I mean, 
hospitals will blithely go along trying to survive, keep their 
doors open, handle their patients. Who would be the person that 
would say, look, we have got to develop a plan in case we have 
a disaster? Who would work on that, Dr. Waeckerle?
    Dr. Waeckerle. There would be a couple of opportunities to 
interface with them. First, of course, as Dr. Alcorta pointed 
out, the Joint Commission on Accreditation of Health Care 
Organizations could implement more stringent standards. The 
second is we could work directly with the American Hospital 
Association. And, third, and probably the most likely 
successful way to do it would be at the local level because, 
you know, all of these things--having unfortunately experienced 
a lot of this in my lifetime, the most successful responses 
come when everybody knows everybody and it is a local response 
and we work together.
    So it is sitting down in a local community and saying we 
need you to be here. We understand there are some cost 
constraints and some fiscal concerns that you have, but despite 
that, even though these are low-probability, they are very 
high-consequence events. If you don't come to the table, the 
system fails.
    Senator Sessions. It seems to me that, again, this comes 
back to a real good community plan where, once you start 
writing it, you have got to discuss what the hospitals are 
going to do, what the fire department is going to do, what the 
sheriffs department is going to do.
    Is there such a thing in certain large cities? Would it be 
worthwhile economically to basically maintain a hospital that 
is not being utilized that is vacant? Is that financially 
prudent?
    Dr. Waeckerle. I think there is a system for you, sir, that 
you all have discussed in the past that I believe is still in 
operation. That is the National Disaster Medical System, NDMS. 
And while I am not certainly an expert on that--others in the 
room may be--we work closely with them, and that had a three-
pronged approach in its inception.
    One was the creation of disaster medical assistance teams, 
which there are still about 20-some around the country that are 
functioning. Second, it allowed the Federal community and 
agencies to come in and provide transportation. And, third, it 
enlisted hospitals, both Federal hospitals and private 
hospitals in the communities around the country to come 
together so that in the event of a national disaster, whether 
it be our troops overseas, such as could conceivably occur in 
the future, or a national difficulty with a large number of 
casualties, we had access to transportation and beds and 
facilities for these. So we should certainly make sure that in 
the terrorism annex plan Health and Human Services proposes--
and I believe they have--that NDMS is an integral part of it.
    Senator Sessions. It should be a part of that.
    Dr. Waeckerle. Yes, sir.
    Senator Sessions. Sheriff, do you have any comment about 
that?
    Mr. Sullivan. No. He is right on the money.
    Senator Sessions. With regard to medical training, do you 
think a first-rate Federal center where an emergency room 
physician could go for a week, 10 days or whatever to have 
intensive training and hands-on experience with this problem 
would be an effective way for the Federal Government to 
contribute?
    Dr. Waeckerle. Yes, sir. What we are looking at--and I 
would be happy to share it with you, although it is, I guess, 
technically the Office of Emergency Preparedness. I can't 
believe that they would refuse your request, if they are smart. 
I would submit that that certainly is a part of the 
comprehensive strategy that we are looking at to augment the 
current educational goals and objectives of all the health care 
professionals we have in the task force, and that includes 
emergency physicians, emergency nurses, critical care nurses, 
EMS personnel, including basic and advanced EMT's, State 
managers, fire, police and the AMA all are represented on this 
task force.
    And we believe that we will have a comprehensive plan, as 
well as curriculum, with a discussion of the barriers and 
challenges that we face in implementing this or proposing this 
for you to consider in the near future.
    Senator Sessions. Sheriff, are you satisfied that the 
Sheriffs' Association is being involved adequately in this 
process?
    Mr. Sullivan. Yes. We are doing catch-up, and I think 
through the NDPO's work and then the granting and training 
activities of OJP, it is getting out there, again, as I 
mentioned earlier, not as fast as you and I would like, but it 
is getting there. And I think NDPO, when it becomes official--
as you heard today, it is not official yet and we have been 
having meetings, but we are not officially meeting. When that 
gets going, the plans are great. You heard all kinds of 
testimony about the one-stop shopping, and the NDPO is it.
    Senator Sessions. Well, I am just going to tell you that is 
harder to do than it is to say because it is just so incredibly 
difficult. It takes a passionate commitment to get everybody to 
work together and listen to them and deal with the individual 
problems and realities of each different department. And you 
have got huge amounts of money in the Centers for Disease 
Control, the Department of Justice, the Department of Defense. 
The Department of Energy has a role in it. You have got money 
in agencies that never met one another in their lives, and in 
their whole life don't expect to. They just want to get their 
money and do their little thing and fill out their little 
blocks and send it back in, I am telling you.
    It is going to be a challenge, and I think the best way to 
have it met is from the grass roots. If it is not happening, 
you will know and you have got to speak up. And we have to keep 
pushing because I really do believe Attorney General Reno is 
personally concerned about this. I mean, she is personally 
engaged and she wants to see this work. The Office of Justice 
Programs will be committed to it, but it is not going to be 
easy for them because they can't order agencies around that are 
not really a part of----
    Mr. Sullivan. That don't want to come to the table and play 
and be part of the exercise or be part of the plan.
    Senator Sessions. Right. So we have just got to continue to 
work at it. As I say, the first people who will know it is not 
working is the first responders.
    Do any of you have any other comments or things you would 
like to be sure that we are aware of that are a part of the 
record today?
    Dr. Waeckerle. I would only reiterate, Senator Sessions, 
that as health care professionals and as elected officials of 
our country, we all have taken a sacred trust on ourselves to 
protect our community, our country, our society and our way of 
life. And it is our belief that certainly weapons of mass 
destruction, and notably biologic weapons, are a foremost 
threat to our way of life.
    And if we don't adequately prepare and respond, as we 
discussed today, then conceivably when a biologic weapon is 
engineered by a really bad person--and there are lots of them 
around--and introduced into our communities, we become vectors 
of our own deaths. We become sources of the death of all of our 
loved ones and our families and our fellow citizens. I believe 
wholeheartedly that it is our sacred trust and commitment that 
causes us to be here today and to focus on these issues for the 
future preservation of our society.
    Senator Sessions. Well said. I think that is a challenge to 
all of us, and your fear is that the biologic threat, as bad as 
it is today, could easily get worse as time goes by with even 
more deadly disease events?
    Dr. Waeckerle. I absolutely guarantee it, Senator.
    Senator Sessions. Well, I will just conclude with this. The 
Armed Services Committee--Senator Warner, who chairs that 
committee, expressed his great concern over weapons of mass 
destruction, and he asked the Director of the CIA his opinion 
on it and he said,

    One of my greatest concerns, Mr. Chairman, is the serious 
prospect that a Bin Laden or another terrorist might use 
chemical or biological weapons. Bin Laden's organization is 
just one of a dozen terrorist groups that have expressed an 
interest in or have sought chemical, biological, radiological 
or nuclear materials.

    And he went on to say that he considered it one of 
America's greatest threats. I think that is what he is paid to 
do, is analyze the intelligence necessary to defend our 
country.
    Thank you again for your excellent comments. I do believe 
the Government is responding. I know the Congress is concerned 
about this and is prepared to spend a great deal more money 
than we have in the past years to confront it. The question is 
will we spend it in a way that maximizes the benefit. We don't 
want to just throw money at it. We want to get down to that 
level in your cities and towns and make sure that the money we 
are putting in there helps you deal with that crisis.
    I believe we can achieve it. I think people are listening. 
The Congress will be exercising our oversight, but I believe 
Director Freeh and Attorney General Reno and Dick Clarke and 
the other group that is working on this are committed to it. 
And I hope that you will contact us if we are missing the mark. 
Thank you again for your contribution.
    This meeting is adjourned.
    [Whereupon, at 4:28 p.m., the subcommittees were 
adjourned.]

                                <greek-d>

</pre></body></html>
